No. _______

IN THE

Supreme Court of the United States

FLOYD CLARK,
Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

APPENDIX

Steven R. Kiersh
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, D.C. 20015
(202) 347-0200
skiersh@aol.com
Counsel of Record for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (804) 644-0477

TABLE OF CONTENTS

Page

Opinion of the United States Court of Appeals for the District of Columbia
Circuit, filed 10/16/20 .................................................................................................. A1
Opinion of the United States District Court for the District of Columbia,
filed 4/22/19 ................................................................................................................A10

i

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued September 18, 2020

Decided October 16, 2020

No. 19-3040
UNITED STATES OF AMERICA,
APPELLEE
v.
FLOYD CLARK,
APPELLANT

Appeal from the United States District Court
for the District of Columbia
(No. 1:10-cr-00133-1)

Steven R. Kiersh, appointed by the court, argued the
cause and filed the brief for appellant.
Daniel G. Randolph, Assistant U.S. Attorney, argued
the cause for appellee. With him on the brief were Elizabeth
Trosman, John P. Mannarino, and James Sweeney, Assistant
U.S. Attorneys. Suzanne G. Curt, Assistant U.S. Attorney,
entered an appearance.
Before: HENDERSON and WALKER, Circuit Judges, and
SILBERMAN, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit Judge
SILBERMAN.

A1

Page 1 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

2
SILBERMAN, Senior Circuit Judge: In this habeas case,
both Parties contend that we have appellate jurisdiction—albeit
for different reasons. But we think neither Party’s arguments
are persuasive, so we dismiss the appeal for lack of subjectmatter jurisdiction.
I.
We begin with a brief review of the underlying facts:
On May 6, 2009, two men abducted Michael Walker at
gunpoint in Washington, D.C. They robbed Walker, beat him
with their weapon, threatened his family, and demanded
$150,000. After leading his kidnappers to a Maryland storage
facility where he claimed to keep his money, a bloodied Walker
escaped and called the police.
At first, Walker claimed not to know his assailants; but
later, he identified Petitioner Floyd Clark as one of the two
men. For over a year prior to the attack, Clark had introduced
Walker to street-level narcotics dealers in exchange for a cut of
the drug proceeds. According to Walker, he initially refrained
from naming Clark because he planned to have Clark killed.
But Walker ultimately decided that killing Clark wasn’t “worth
it,” and he turned Clark’s name over to a D.C. Metro Police
detective. J.A. 503. The second abductor was never identified.
On May 15, 2009, a grand jury returned a nine-count
indictment against the Petitioner, charging him with
kidnapping, 18 U.S.C. § 1201(a)(1), armed carjacking, D.C.
Code §§ 22-2803, -4502, brandishing a firearm in a crime of
violence, 18 U.S.C. § 924(c)(1)(A)(ii), and various related
offenses. The following year, Clark was convicted on all
counts in federal court1—a verdict based principally on

1

Although the jury convicted Clark of two counts under §
924(c), the district court subsequently granted the government’s
motion to vacate one of those convictions. On direct appeal, we

A2

Page 2 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

3
Walker’s testimony. The district judge sentenced Clark to 260
months imprisonment, including a mandatory 60 months
pursuant to § 924(c)(1).
Four years later, Walker recanted. In a signed affidavit,
Walker claimed that he actually did not know who carjacked,
kidnapped, and robbed him; and that he only accused Clark
because he thought Clark was having an affair with his wife.
He also claimed that the police induced him to make up “a
story” so that they could “make a case” against Clark. J.A.
1006–07.
In April 2015, Clark moved pro se for habeas relief
under 28 U.S.C. § 2255, which authorizes a post-conviction
action to set aside a federal sentence imposed in violation of the
Constitution or laws of the United States. Clark’s pro se habeas
application rested on three grounds: (1) Walker’s recantation,
(2) Ineffective assistance of trial counsel, and (3) Ineffective
assistance of appellate counsel. The district court sua sponte
appointed counsel for Clark. See 18 U.S.C. § 3006A. Then
with the assistance of counsel, Clark supplemented his initial §
2255 motion, claiming that 18 U.S.C. § 924 (c)(1)(A)—which
carries a five-year mandatory minimum for brandishing a
firearm in any crime of violence—is unconstitutionally vague
after the Supreme Court’s decision in Johnson v. United States,
576 U.S. 591 (2015). See also United States v. Davis, 139 S.
Ct. 2319, 2324 (2019). Counsel also grounded Clark’s
recantation claim in the Fifth Amendment’s due process clause.
On April 22, 2019, the district court denied Clark’s first
three claims, but—here is the rub—it reserved the Petitioner’s
§ 924(c) claim for later resolution because, at that time, Davis

affirmed Clark’s convictions, but we vacated his initial (84-month) §
924(c) sentence and remanded for resentencing. See United States v.
Clark, 565 F. App’x 4, 5 (D.C. Cir. 2014) (unpublished) (discussing
Alleyne v. United States, 570 U.S. 99, 103 (2013)).

A3

Page 3 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

4
had not been decided. The judge explained that his opinion
“resolves three of Mr. Clark’s claims but leaves the [§ 2255]
motion open until the Court is able to resolve his fourth claim.”
J.A. 1270.
For a petitioner to appeal the final order in a § 2255
habeas case, § 2253(c)(1) requires him to obtain a certificate of
appealability. Accordingly, the week after the district court
issued its order, Clark moved for the certificate. The district
judge granted the certificate solely on Clark’s recantation claim
without commenting on the finality of the underlying order—
which, of course, left one claim pending.
II.
This case raises an obvious question about our appellate
jurisdiction. Can the district judge’s order, partially resolving
Clark’s petition, be considered “final” under § 2253(a)?
Petitioner says yes, asserting a right to appeal from a
“practically” final order. The government agrees that we have
jurisdiction, but reaches that position by urging us to construe
Petitioner’s habeas motion—despite its specific designation—
as a Federal Rule of Criminal Procedure 33 motion for a new
trial. A Rule 33 motion, the government asserts, is a separate
and independent procedural vehicle from any § 2255 claims,
which are civil in character. Then, on the government’s theory,
the rejection of a Rule 33 motion is its own final order without
regard to Clark’s pending § 924(c) claim. That leads to the
government’s kicker—because Rule 33 motions must be
brought within three years of a verdict, we should reject
Petitioner’s “Rule 33” motion as time barred.
Questions of finality typically arise under 28 U.S.C. §
1291, a general statutory grant of appellate jurisdiction. That
section provides that “[t]he courts of appeals . . . shall have
jurisdiction of appeals from all final decisions of the district
courts.” (emphasis added). Although § 2253 controls our
jurisdiction in habeas cases, see Gonzalez v. Thaler, 565 U.S.

A4

Page 4 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

5
134, 140 (2012), it also limits our authority to reviewing only
final orders. And the requirement of finality in habeas cases is
“no less exacting” than in other contexts. Andrews v. United
States, 373 U.S. 334, 340 (1963). Of course, as a jurisdictional
prerequisite, we are obliged to consider finality in habeas
appeals even if not raised by either party.
Because it leaves Clark’s § 924(c) claim pending, the
district court’s order appears nonfinal on its face. A judgment
is typically final only when the whole case is complete. See
Ritzen Grp., Inc. v. Jackson Masonry, LLC, 140 S. Ct. 582, 586
(2020). We consider an order “final” if it “terminates” the case
and leaves nothing for the court “but [to] execute the
judgment.” Id. This final-judgment rule—derived from the
common law and codified since the First Congress—has long
promoted efficient judicial administration by avoiding the
delay and expense of piecemeal appeals. See, e.g., Mohawk
Indus., Inc. v. Carpenter, 558 U.S. 100, 106 (2009); McLish v.
Roff, 141 U.S. 661, 665–66 (1891).
Notwithstanding this well-established doctrine,
Petitioner relies on an old Supreme Court case, Gillespie v.
United States Steel Corp., 379 U.S. 148 (1964), which, he
claims, “opens the door a little bit” and allows ostensibly
nonfinal orders to be regarded as “practically” final. To be
sure, Gillespie is a rather confusing case. There, the Supreme
Court confronted an important national question: Whether the
Jones Act, a federal maritime law governing liability for a
seaman’s injury or death, preempted state and common law
remedies. Id. at 150. The district court, ruling that the Jones
Act supplied the exclusive remedy for those cases falling within
its purview, struck all parts of the complaint that related to
recovery on other theories. Id. at 150–51. But it left the merits
of the plaintiff’s Jones Act claim for further litigation. Id. The
Supreme Court characterized the finality issues as “obviously
marginal” (for reasons not particularly apparent). Id. at 154.
And it noted that in “marginal cases,” courts should weigh the
inconvenience of piecemeal review as well as the dangers of

A5

Page 5 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

6
delay. Id. at 152–53. The Court then plowed ahead to decide
the merits.
Petitioner relies on the Supreme Court’s comment in
Gillespie where the court called for a “practical rather than
technical” construction of finality, id. at 152, language that we
have described as dictum, Everett v. US Airways Grp., Inc., 132
F.3d 770, 774 (D.C. Cir. 1998). But, nearly 15 years later, the
Court closed the door on Petitioner’s expansive reading of
Gillespie. In Coopers & Lybrand v. Livesay, the Court
“explained” Gillespie was based, in part, on the Parties’ failure
to raise the finality issue until argument on the merits and the
“unsettled issue of national significance” presented by the case.
437 U.S. 463, 477 n.30 (1978).2 To use a labor-relations term,
the court “red circled” Gillespie, limiting that case to its unique
facts. See id. In Everett, we followed the Supreme Court’s
admonition and rejected a Gillespie exception to the finaljudgment rule. 132 F.3d at 774.3

2

Occasionally the Supreme Court gives procedural
objections—and sometimes even jurisdictional questions—short
shrift when it regards the merits as compelling. See, e.g., Buck v.
Davis, 137 S. Ct. 759, 774–75 (2017) (proceeding to the merits of a
petitioner’s habeas claims where only a certificate of appealability
was at issue); Carrie Leonetti, Smoking Guns: The Supreme Court’s
Willingness to Lower Procedural Barriers to Merits Review in Cases
Involving Egregious Racial Bias in the Criminal Justice System, 101
MARQ. L. REV. 205, 216–30 (2017).
3

We recognize, of course, that the collateral order doctrine
is a practical construction of the finality requirement. See Cohen v.
Beneficial Indus. Loan Corp., 337 U.S. 541, 546 (1949). That limited
doctrine accommodates a small class of rulings that conclusively
determine a disputed question, resolve an issue completely separate
from the merits of the action, and are effectively unreviewable on
appeal from a traditional final judgment. Clark makes no attempt to
justify this appeal based on the collateral order doctrine. Nor could

A6

Page 6 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

7
Even if we were to read Gillespie as providing some
“flexibility” in the application of finality, Petitioner’s claims,
while creative, are fallacious. Petitioner asks us to give
significance to the fact that his pending § 924(c) claim was a
late addition to his initial, pro se, § 2255 motion. He would
have us treat his dismissed claims as totally separate from his §
924(c) claim simply because the latter supplemented his
petition. But this distinction does not differentiate Clark’s
appeal from any other nonfinal order in which a district court
has dismissed one potentially dispositive claim or granted
partial summary judgment. See, e.g., Liberty Mut. Ins. Co. v.
Wetzel, 424 U.S. 737, 742 (1976).
Finality does not depend on when one’s claims are
filed—it depends on whether the entire case has been decided.
Indeed, in the general civil context, the final-judgment rule is
not satisfied if “the plaintiff is free to amend his pleading and
continue the litigation”—even where his complaint has already
been dismissed by the district court. Ciralsky v. C.I.A., 355
F.3d 661, 666 (D.C. Cir. 2004); see Murray v. Gilmore, 406
F.3d 708, 712–13 (D.C. Cir. 2005). So too in habeas
proceedings. If a decision is not final so long as a plaintiff may
file additional claims (or amend existing ones), then, a fortiori,
the district court’s failure to decide supplemental claims
already filed cannot make final an otherwise interlocutory
order. It should also be recognized that endorsing Clark’s
argument would defeat the policy against piecemeal appeals.

he, as the denial of his recantation claim will be reviewable upon the
final disposition of his entire habeas application. See Citizens for
Responsibility & Ethics in Washington v. U.S. Dep’t of Homeland
Sec., 532 F.3d 860, 864 (D.C. Cir. 2008).
Clark also asserts that an unpublished opinion of ours, Earle
v. Sec. & Exch. Comm’n, No. 20-5013, 2020 WL 4332907, (D.C. Cir.
May 1, 2020), “reiterated the vitality of Gillespie.” Suffice it to say,
it did not.

A7

Page 7 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

8
On his theory, whenever a habeas petitioner files his claims in
succession, he may subsequently appeal the denial of those
claims bit by bit rather than at the end of the litigation. But that
would encourage manipulative filings and “vitiate the final
judgment rule altogether.” Green v. Dep’t of Commerce, 618
F.2d 836, 841 (D.C. Cir. 1980).
Petitioner’s last argument is quite thin. He claims that
the district court’s certificate of appealability suffices to
establish finality. That contention flies in the face of § 2253,
which requires both a final order and a certificate of
appealability. See § 2253(a), (c)(1).4 We acknowledge that
Federal Rule of Civil Procedure 54(b) permits a district court
to enter a final judgment as to one or more (but fewer than all)
claims when there “is no just reason for delay”—a
determination that we would review for an abuse of discretion.
See Attias v. CareFirst, Inc., 969 F.3d 412, 417 (D.C. Cir.
2020). But “without the express determination and direction
required by Rule 54(b), the [district court’s] judgment cannot
be considered final ‘as to any of the claims.’” Everett, 132 F.3d
at 773. Here, the district court did not make the required
determination. And we cannot say whether the relevant
equities would have permitted the court to do so. Thus, Rule
54(b) does not facilitate jurisdiction here.
We turn to the government’s position. The government
sought to interpret Clark’s petition, a civil motion, as a de facto
continuation of a criminal proceeding under Rule 33. If so,
Clark’s “Rule 33 motion for a new trial” would be too late, as
it was filed beyond that rule’s three-year limitations period. See
Fed. R. Crim. P. 33(b)(1).

One is reminded of Frank Sinatra’s song: As with “love
and marriage,” the requirements of § 2253 “go together like a horse
and carriage. . . . You can’t have one without the other.” Frank
Sinatra, Love & Marriage (Capitol Studios 1955).
4

A8

Page 8 of 9

USCA Case #19-3040

Document #1866612

Filed: 10/16/2020

9
This is really an extraordinary argument. The courts of
appeals have generally adhered to the maxim that “substance
trumps form” in habeas proceedings. Trenkler v. United States,
536 F.3d 85, 97 (1st Cir. 2008). And so, no matter what label
a Petitioner gives to an action, “‘any motion filed in the district
court that imposed the sentence, and substantively within the
scope of § 2255 [], is a motion under § 2255.’” Id. (quoting
Melton v. United States, 359 F.3d 855, 857 (7th Cir. 2004))
(emphasis in original). There is no question that Clark meets
those requirements here.5
On occasion, we note that courts will treat a pro se
litigant’s tardy motion for a new trial as a § 2255 petition, thus
giving him the benefit of the doubt. See generally United States
v. Palmer, 296 F.3d 1135, 1143 (D.C. Cir. 2002), as amended
(Sept. 17, 2002). Yet the government’s position would flip this
practice on its head—asking us to construe a perfectly clear §
2255 motion as a Rule 33 motion for the very purpose of
dismissing Petitioner’s claim as time barred. We reject that
rather peculiar position summarily.
Accordingly, the appeal is dismissed.
So ordered.

5

In fact, the government concedes that the Supreme Court
has not squarely precluded a “due process” habeas claim based on
newly discovered evidence probative of actual innocence—
notwithstanding the extraordinary showing any such claim may
require. Appellee Br. 21–22 n.4; see Herrera v. Collins, 506 U.S.
390, 416–17 (1993).

A9

Page 9 of 9

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 1 of 49

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

UNITED STATES OF AMERICA

v.
FLOYD CLARK,
Defendant.

)
)
)
)
)
)
)
)

Criminal No. 10-0133 (PLF)
Civil Action. No. 15-0493 (PLF)

OPINION
This matter is before the Court on defendant Floyd Clark's motion [Dkt. No. 114]
to vacate, set aside, or correct his sentence under 28 U.S.C. § 2255, as amended by the
supplement to defendant's motion [Dkt. No. 132]. The United States opposes the motion. Upon
careful consideration of the parties' papers, the relevant legal authorities, the evidentiary hearing
held on June 20,2016, the motions hearing held on January 10,2019, and the entire record in
this case, the Court will deny Mr. Clark's motion [Dkt. No. 114] as to the claims of new
evidence and ineffective assistance of counsel, and will hold the motion in abeyance with respect
to the claim concerning the constitutionality of Mr. Clark's sentence under 18 U.S.C § 924(c), as
presented in Mr. Clark's supplement [Dkt. 132]. A separate Order giving effect to this opinion
will issue this same day. 1

The Court has reviewed the following documents and accompanying exhibits in
connection with the pending motion: Indictment [Dkt. No.6]; August 30,2010 Order
Compelling Production of DNA ("DNA Order") [Dkt. No. 21]; September 17,2010 Notice of
Corrected Docket Entry as to DNA Order; October 19,2010 Civil Contempt Order ("Contempt
Order") [Dkt. 35]; December 8, 2010 Minute Entry; Verdict Form [Dkt. No. 55]; December 9,
2010 Transcript ofTrial Proceedings ("Dec. 9, 2010 Trial Tr.") [Dkt.No. 67]; Presentence

A10

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 2 of 49

I.

PROCEDURAL HISTORY

On May 6, 2009, two men carjacked, robbed, and kidnapped Michael Walker at
gunpoint in Washington, D.C. On May 18, 2010, after hearing testimony from Mr. Walker, a
grand jury returned a nine-count indictment charging defendant Floyd Clark in connection with

Investigation Report ("PSR'') [Dkt. No. 72]; Judgment [Dkt. No. 84]; Amended Presentence
Investigation Report ("Amended PSR") [Dkt. No. 92]; Transcript of December 6, 2010 Motions
Hearing ("Dec. 6, 2010 Hr'g Tr.") [Dkt. No. 94]; Transcript of December 7, 2010 Trial
Proceedings ("Dec. 7, 2010 Trial Tr.") [Dkt. No. 95]; Transcript of December 8, 2010 Trial
Proceedings ("Dec. 8, 2010 Trial Tr.") [Dkt. No. 96]; Transcript of December 13,2010 Trial
Proceedings ("Dec. 13, 2010 Trial Tr.") [Dkt. No. 97]; Defendant's June 6, 2011 Memorandum
in Aid of Sentencing ("Defendant's First Memorandum in Aid of Sentencing") [Dkt. No. 76];
Transcript of August 11,2011 Sentencing Proceedings ("Aug. 11, 2011 Sentencing Tr.") [Dkt.
No. 98]; Transcript of June 9, 2011 Sentencing Proceedings ("June 9, 2011 Hr'g Tr.") [Dkt. No.
99]; Transcript of August 11,2011 Sentencing Proceedings ("Aug. 11,2011 Sentencing Tr.)
[Dkt. 98]; August 12,2011 Defendant's Notice of Appeal ("First Notice of Appeal") [Dkt. No.
80]; May 16, 2014 Judgement of the United States Court of Appeals for the District of Columbia
Circuit ("USCA Judgement") [Dkt. 105]; July 10,2014 Mandate of the United States Court of
Appeals for the District of Columbia Circuit ("USCA Mandate") [Dkt. 106]; Transcript of
September 29,2014 Resentencing Proceedings ("Sept. 29,2014 Resentencing Tr.") [Dkt. 112];
Amended Judgment [Dkt. No. 109]; Mr. Clark's Notice of Appeal of Amended Final Judgment
("Second Notice of Appeal") [Dkt. No. 108]; March 17 Order of the United States Court of
Appeals for the District of Columbia granting Mr. Clark's Unopposed Motion to Dismiss his
Appeal ("USCA Order of Dismissal'') [Dkt. No. 113]; Mr. Clark's ProSe Motion to Vacate, Set
Aside, or Correct Sentence Under 28 U.S.C. § 2255 ("Section 2255 Mot.") [Dkt. No. 114];
Section 2255 Mot. Declaration ofDefendant ("Clark Declaration") [Dkt. No. 114-1]; Section
2255 Mot. Attachment A ("Recanting Affidavit'') [Dkt. No. 114-2]; United States' Opposition to
Section 2255 Motion ("Section 2255 Opp'n") [Dkt. No. 118]; July 14,2015 Order Appointing
Counsel ("Order Appointing Counsel") [Dkt. 119]; Mr. Clark's ProSe Reply to Section 2255
Motion ("Section 2255 ProSe Reply") [Dkt. No. 122]; Mr. Clark's Declaration in Support of
Reply to Section 2255 Mot. (Section 2255 Reply Declaration") [Dkt. No. 123]; Mr. Clark's
Supplemental Reply in Support of Motion to Vacate, Set Aside, or Correct Sentence ("Section
2255 Second Reply") [Dkt. No. 124]; Mr. Clark's Motion to Admit Hearsay ("Hearsay Mot.")
[Dkt. No. 128]; United States' Opposition to Hearsay Motion ("Hearsay Opp'n") [Dkt. No. 129];
Mr. Clark's Reply to Hearsay Motion ("Hearsay Reply") [Dkt. No. 131]; June 23,2016
Supplement to Defendant's Motion Pursuant to 28 U.S.C. § 2255 ("Section 2255 Mot. Supp.")
[Dkt. 132]; United States' Supplemental Brief in Opposition to Hearsay Motion ("U.S. Suppl.
Hearsay Br.") [Dkt. No. 133]; Mr. Clark's Supplemental Brief in Support of Hearsay Motion
("Clark Suppl. Hearsay Br.") [Dkt. No. 135]; March 1, 2016 Minute Order; Transcript of June
20,2016 Evidentiary Hearing ("June 20, 2016 Hr'g Tr.") [Dkt. No. 136]; and June 21,2018 Joint
Status Report [Dkt. No. 140].
2

A11

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 3 of 49

the attack. The indictment included the following charges: one count of kidnapping, in violation
of 18 U.S.C. § 1201(a)(l); two counts of using, carrying, possessing, or brandishing a firearm
during a drug trafficking offense, in violation of 18 U.S.C. § 924(c)(1)(A)(ii); one count of
carjacking, in violation of 18 U.S.C. § 2119(2); one count of carjacking while armed, in violation
of D.C. Code§§ 22-2803 and 22-4502; two counts of possession of a firearm during the
commission of a crime of violence, in violation of D.C. Code§ 22-4504(b); one count of armed
robbery, in violation of D.C. Code§§ 22-2801 and 22-4502; and one count of unlawful
possession of a firearm by an individual under felony indictment, in violation of
18 U.S.C. § 922(n).
In December of2010, Mr. Clark was tried on these charges before a jury in this
Court. At trial, Mr. Walker testified that he and Mr. Clark were in the narcotics business
together. According to Mr. Walker, Mr. Clark and another man abducted Mr. Walker, robbed
him of valuable possessions, and hit him in the face with a gun. Mr. Clark and the other assailant
demanded $150,000, physically restrained Mr. Walker, and took him to various locations in
Washington, D.C. and Maryland in an unsuccessful attempt to procure the money. Mr. Walker
was able to escape and call the police. See Dec. 8, 2010 Trial Tr. at 51-143. Mr. Walker's
second assailant has never been identified.
Mr. Walker was the government's chief witness against Mr. Clark at
trial- indeed, he was the only witness to provide direct evidence identifying Mr. Clark as one of
the perpetrators of the attacks. On December 13, 2010, a jury convicted Mr. Clark on all counts
of the indictment. See Verdict Form. The Court subsequently granted the United States' motion
to vacate Mr. Clark's conviction on Count Four, one of the Section 924(c) counts. See Amended
Judgement; Aug. 11,2011 Sentencing Tr. at 29. On August 11,2011, the Court sentenced Mr.

3

A12

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 4 of 49

Clark to an aggregate term of 284 months in prison, including a mandatory sentence of 84
months on the remaining 924(c) count, followed by five years of supervised release. See
Judgment at 1-5; Aug. 11,2011 Sentencing Tr. at 48. On May 16, 2014, the D.C. Circuit
affirmed the convictions, except with respect to the sentence for the Section 924(c) conviction
(Count Two), which was remanded to this Court for resentencing. See United States v; Clark,
565 F. App'x 4, 5 (D.C. Cir. 2014).2 On September 29, 2014, the Court resentenced Mr. Clark to
60 months in prison on the Section 924(c) conviction. See Sept. 29,2014 Resentencing
Tr. at 3-6; Amended Judgment at 3. Mr. Clark's new aggregate term of imprisonment was 260
months. See id. Mr. Clark appealed the resentence but later moved to dismiss his appeal, which
motion the D.C. Circuit granted. See Notice of Appeal; Order Granting Voluntary Dismissal.
On April2, 2015, Mr. Clark filed the initial prose motion now before this Court,
a motion to vacate, set aside, or correct his sentence under 28 U.S.C. § 2255. See Section 2255
Mot. at 1, 4-6 [Dkt. No. 114]. The Court~ sponte determined that it was in the interest of
justice to appoint counsel for Mr. Clark pursuant to 18 U.S.C. § 3006A. Order Appointing
Counsel at l. Thereafter, Mr. Clark's counsel replied to the government's opposition to the
Section 2255 motion, see Section 2255 Second Reply, and also filed a June 2016 supplement to
the Section 2255 motion that added a new claim, see Section 2255. Mot. Supp. at 1-2 [Dkt. No.
132]. As amended, Mr. Clark's motion asserts four total grounds for relief, three of which the
Court resolves today. First, Mr. Clark argues that an August 1, 2014 affidavit from Mr. Walker

2

The court of appeals remanded for this Court to take account of recent guidance
from the Supreme Court that any fact entailing a mandatory minimum sentence- e.g., for a
carjacking charge, the fact that the defendant also brandished a firearm - constitutes an element
of the charged offense that must be submitted to the jury. See Alleyne v. United States, 570 U.S.
99 (2013).
4

A13

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 5 of 49

recanting his trial testimony constitutes newly discovered evidence that the sentence was
imposed in violation of the Constitution or laws of the United States or was otherwise subject to
collateral attack. See Section 2255 Mot. at 4. Second, Mr. Clark argues that his trial counsel's
failure to object to a sentencing enhancement for obstruction of justice, or his decision to
withdraw that objection, constituted ineffective assistance of counsel in violation of the Sixth
Amendment to the United States Constitution. See Sec. 2255 Mot. at 5. Third, Mr. Clark
contends that the decision of his appellate counsel not to include the sentencing enhancement as
a basis for appeal likewise constituted ineffective assistance of counsel. See Sec. 2255 Mot. at 6.
These three claims were presented in Mr. Clark's initial prose motion and are resolved by
today's opinion and order. In the supplement to his initial motion, Mr. Clark also raises a fourth
basis for relief, which must be deferred to another day: whether his sentence on Count Two for
violating 18 U.S.C. § 924(c) is now unconstitutional following the Supreme Court's decisions in
United States v. Johnson, 135 S. Ct. 2551 (2015), and Sessimis v. Din1aya, 584 U.S._, 138 S.
Ct. 1204 (2018). See Section 2255 Mot. Supp. at 1-2.3

In Johnson and Dimay~ the Supreme Court held that the term "crime of violence"
is unconstitutionally vague under certain statutes. Mr. Clark argues that 18 U.S.C. 924(c), under
which he was sentenced for use of a firearm in furtherance of a "crime of violence," is likewise
unconstitutionally vague. The parties agreed that this issue should be considered only after the
D.C. Circuit decided a motion for panel rehearing in United States v. Eshetu, 863 F.3d 946 (D.C.
Cir. 20 17), which concerns the constitutionality of the residual clause of 18 U.S.C. § 924(c). See
June 21, 2018 Joint Status Report. Thereafter, the D. C. Circuit granted the petition for rehearing,
vacated appellants' 924(c) convictions, and found Section 924(c)(3)(B) void for vagueness. See
United Staies v. Eshetu, 898 F.3d 36 (D.C. Cir. 2018), ~·for rehr'g en bane denied sub nom.
United States v~ Sorto, USCA Case No. 15-3023, Dkt. No. 1773334 (Feb. 13, 2019). The
constitutionality of Section 924(c)(3)(B) is now before the Supreme Court, however, in United
States v. Davis, No. 18-431, which was argued on Aprill7, 2019. The United States filed a
motion to stay the mandate in Eshetu pending the Supreme Court's ruling in Davis. See United
States v. Sorto, Dkt. No. 1773928 (Feb. 19, 2019). The D.C. Circuit granted the motion to stay.
Id., Dkt. No. 1781257 (AprilS, 2019). Therefore, the Court will refrain from ruling on Mr.
Clark's Section 924(c) argument until after the Supreme Court has issued its opinion in United
States v. Davis.
3

5

A14

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 6 of 49

In March of2016, the Court granted Mr. Clark's request for an evidentiary
hearing on the Section 2255 motion. See March 1, 2016 Minute Order. Before the evidentiary
hearing, however, Mr. Clark filed a motion to admit in evidence Mr. Walker's recanting affidavit
under an exception to the rule against hearsay. See Hearsay Mot. at 1. Mr. Clark argued that, if
Mr. Walker invoked his Fifth Amendment privilege against self-incrimination and refused to
testify at the evidentiary hearing, Mr. Walker's affidavit should be admitted in lieu of his
testimony as a statement against interest under Rule 804(b)(3) of the Federal Rules of Evidence.
See id. at 2-3.
At the evidentiary hearing on June 20, 2016, Mr. Walker asserted his Fifth
Amendment privilege against self-incrimination and refused to testify either to the substance of
the recanting affidavit or the circumstances of its creation. The Court concluded that it lacked
the power to grant Mr. Walker immunity for his testimony, and the government declined to offer
him immunity. See June 20,2016 Hr'g. Tr. at 25-33.
Following the evidentiary hearing, and upon consideration of the full record, the
Court granted Mr. Clark's motion to admit Mr. Walker's recanting affidavit under Rule
804(b)(3) of the Federal Rules of Evidence. The Court found that the affidavit amounted to a
statement against Mr. Walker's interest and that the circumstances under which the statement
was made offered evidence of its reliability. See United States v. Clark, 325 F. Supp. 3d 191
(D.D.C. 2018). In so doing, the Court offered no view on the truth of the statements contained
within the recanting affidavit. That matter lies at the heart of the Section 2255 motion, which is
now ripe for the Court's decision.

6

A15

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 7 of 49

II.

NEW EVIDENCE CLAIM: FACTUAL BACKGROUND
A. The Evidence at Trial

At trial, the government presented four lay witnesses who observed aspects of the
crime: the victim Michael Walker, Yonata Kalbi, Christel Antoine, and Carmen Isler. The
government also presented testimony from law enforcement personnel: Detective Elmer Baylor,
Jr. of the Metropolitan Police Department of the District of Columbia ("MPD"), MPD Officers
Michael DePrince and Tony Nwani, and FBI Special Agent Chad Fleming. Malcolm Drewery, a
courtroom deputy clerk at the Superior Court of the District of Columbia, testified as an expert
witness. The government also presented testimony from two women with whom Mr. Clark has
children: Leslie Warner and Mercedy's [sic] Phillips. The defense did not offer any witnesses.
1. Michael Walker's Testimony

At trial, Michael Walker testified that he and Mr. Clark began selling crack
cocaine together around August or September of2008: Mr. Clark served as an intermediary
between Mr. Walker and the street-level dealers, identifying purchasers and facilitating
transactions. See Dec. 8, 2010 Trial Tr. at 57-61.4 Mr. Walker said that Mr. Clark called him on
May 6, 2009 to suggest that they meet at a shopping center in Southeast Washington, D.C. to
discuss a buyer interested in purchasing $30,000 of narcotics, a larger transaction than those Mr.
Clark customarily facilitated for Mr. Walker. See id. at 65-67, 70. Mr. Walker drove his wife's
car, a red 2008 Toyota Highlander, to Be11co Shopping Center at East Capitol Street and Denning
Road, S.E. See id. at 68-71,96. When Mr. Walker arrived at the shopping center he received a

4

Mr. Walker testified that he received immunity from prosecution in exchange for
his trial testimony. See Dec. 8, 2010 Trial Tr. at 54 (citing Gov't Ex. 9, Sept. 14,2010 Immunity
Letter). He also acknowledged that he had multiple prior convictions for forgery and fraud. See
id. at 61.
7

A16

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 8 of 49

call from Mr. Clark, who was using a phone number unfamiliar to Mr. Walker. Mr. Clark
revised the meeting location to Queens Stroll, S.E., a nearby street formerly known as Drake
Place. Id. at 61-62. Upon arriving there, Mr. Walker saw Mr. Clark standing beside a black
SUV. Mr. Clark entered the front passenger seat of Mr. Walker's car, and Mr. Walker then
received another call from the unfamiliar phone number. Mr. Clark explained that it was the
prospective buyer of drugs, who had been waiting in the black SUV.
Shortly thereafter, Mr. Walker testified, the prospective buyer entered the rear
seat of Mr. Walker's car. See Dec. 8, 2010 Trial Tr. at 74-76. When Mr. Walker questioned Mr.
Clark about the prospective buyer, Mr. Clark pulled a large chrome semiautomatic gun from
under his shirt and told Mr. Walker, "you know what time it is." See id. at 78-83. Mr. Clark
ordered Mr. Walker into the rear seat of the Toyota Highlander, and the prospective buyer drove
the car to a nearby alley. There, Mr. Clark tore Mr. Walker's gold chain from his neck and took
his watch, money, and wallet. Mr. Clark attempted to place a bag over Mr. Walker's head,
which Mr. Walker specifically identified as a "Downtown Locker Room Bag." ld. at 82. Mr.
Walker refused to comply. A police officer later testified that he recovered certain articles
consistent with this account from the 2008 Red Toyota Highlander belonging to Mr. Walker's
wife. See Part II.A.3, infra.
Mr. Walker further testified that, after Mr. Clark and the other man robbed him,
the two assailants began demanding substantial sums of money from Mr. Walker- about
$150,000. See Dec. 8, 2010 Trial Tr. at 81-83. While Mr. Clark held Mr. Walker at gunpoint in
the rear seat of the Highlander, the other man drove Mr. Walker's car to various locations where
they suspected Mr. Walker was keeping money. See Dec. 8, 2010 Trial Tr. at 83-104. Believing
that Mr. Walker must keep money in a safe at his home, the men first drove to Mr. Walker's

8

A17

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 9 of 49

house in Southeast Washington. Upon arriving there, Mr. Walker saw his wife at the door
watching his young nephew play in the yard. See id. at 83-84. Mr. Walker attempted to
dissuade the men from entering his home by stating that a police officer lived next door (he
testified at trial that an officer owned the property but did not live there). When Mr. Clark
continued to threaten entry, Mr. Walker explained that his safe sat on the back porch, rather than
inside the house. Id. at 85-86. As the three men drove around the block to another parking lot,
Mr. Clark threatened to kill Mr. Walker's wife if the safe did not contain sufficient money.
Knowing that the safe contained no money, Mr. Walker "switched up" his story again to claim
that he had money at a nearby bank. Mr. Clark refused to go to the bank for fear of being caught,
saying "I know what you trying to do." See id. at 84-86.
Next, Mr. Walker testified, the two assailants drove him to another parking lot.
Mr. Walker attempted to escape from the car, but Mr. Clark struck him with his gun above the
left eye, causing substantial bleeding. Mr. Walker testified that Mr. Clark also hit him on the
knee, forced him to lie down on the floor between the back seat and the front seat, and pinned
him down with the seat in a way that prevented any movement. See Dec. 8, 2010 Trial Tr.
at 86-89. In substantial pain, Mr. Walker told his assailants that he had money stored in a private
unit at a storage facility on Kenilworth Avenue in Bladensburg, Maryland, and that he would
give them $75,000 of the $125,000 he had stored there. At trial, Mr. Walker indicated that this
too was a ruse: the facility came to mind because a family member had a unit at a nearby U-Haul
facility, but Mr. Walker did not have a unit at the storage facility or otherwise have access to
money there. Even so, Mr. Clark directed the other assailant to drive to the storage facility. Id.
at 89-90.

9

A18

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 10 of 49

Mr. Walker warned his assailants that entering the facility with .his face covered in
blood was likely to arouse suspicion, so he requested that they "clean [him] up." Dec. 8, 2010
Trial Tr. at 90-91. At this request, Mr. Walker heard Mr. Clark and the other man discussing a
stop at 7-Eleven or CVS to get bandages and water. The car stopped and at least one person got
out, though Mr. Walker was still pinned to the floor of the car and could not see directly. Id. at
91-93. Another witness, an employee of a 7-Eleven in the area of the attack, later offered
testimony that also speaks to this portion of the events. See Part ILA.2, infra.
Mr. Walker further testified that, after the stop at 7-Eleven, the assailants drove
him to a storage facility on Kenilworth Avenue in Bladensburg, Maryland. Mr. Walker's
testimony describes the location variously as aU-Haul or U-Storage facility. See Dec. 8, 2010
Trial Tr. at 89, 94. There, the assailants allowed Mr. Walker to sit up in the back seat of the car.
According to Mr. Walker, Mr. Clark wiped Mr. Walker's face with water to clean off blood,
bandaged his head, and "said he was sorry." Id. at 95. Mr. Clark gave one of his own shirts to
Mr. Walker because Mr. Walker's shirt was stained with blood. See id. After Mr. Clark
bandaged his head, Mr. Walker asked to sit and collect himself for several minutes because his
ankle was hurting after being pinned down. He testified that, in reality, he was planning to
escape from his assailants on foot. Id. at 95-96. Mr. Walker was permitted to rest for about ten
minutes, after which Mr. Clark and Mr. Walker exited the car and went into the office of the
storage facility. Id. at 97.
Mr. Walker testified that, once inside the office of the storage facility, he and Mr. Clark
encountered a young woman at the desk. Mr. Walker told her that he wanted access to his
storage unit and identified himself using his real name. Dec 8, 2010 Trial Tr. at 98. When the
woman told Mr. Walker that no unit was rented to someone of his name, Mr. Walker fabricated

10

A19

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 11 of 49

an explanation to Mr. Clark: that he had a private "off-the-books" storage unit, and that only an
employee named Pat could open it. See id. at 100. Continuing his attempt to deceive Mr. Clark,
Mr. Walker asked when the next shift would begin, but the woman indicated she was working
the day's final shift and that no one else would be working that day. As the two men were
leaving the office, Mr. Clark asked the desk attendant if anyone named "Pat" was actually an
employee at the U-Store facility; Mr. Walker believes the attendant said no. See id. at 100.
Another witness, the storage facility desk attendant, later offered testimony about this portion of
the events. See Part II.A.2, infra.
As Mr. Clark and Mr. Walker exited the office, Mr. Walker ran across Kenilworth
Avenue to an apartment complex called Kenilworth Towers. He entered the complex's office
and asked a person working there if he could use the phone. Mr. Walker testified that he called
the police but hung up immediately in order to call his wife and instruct her to lock the doors of
their home, fearing that his assailants would return to his house. He called 911 again, and shortly
thereafter the police and an ambulance arrived and took Mr. Walker to the hospital. See Dec. 8,
2010 Trial Tr. at 103-04. A resident manager at Kenilworth Towers later offered testimony
concerning Mr. Walker's conduct at the apartment complex. See Part II.A.2, infra.
Mr. Walker testified that, when the police first arrived at Kenilworth Towers
Apartments on the day of the attack, he spoke with Detective Elmer Baylor, Jr. of the
Metropolitan Police Department of the District of Columbia. See Dec. 8, 2010 Trial Tr. at 104.
He initially told Detective Baylor that he had been abducted near "51st and Fitch Streets." See
id. at 132; see also Dec. 9, 2010 Trial Tr. at 197; Defense Ex. 4 (stipulating the placement of a
surveillance camera ~'at 51st and Fitch Streets, Southeast"). He described his two assailants but
stated that he did not know their identities. See Dec. 8, 2010 Trial Tr. at 132. Later, Mr. Walker

11

A20

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 12 of 49

revised the location of his abduction and told the prosecutor and the detectives that he did in fact
know one of the assailants, whom he identified as someone named "Floyd." See id. at 106. Mr.
Walker testified that he eventually learned "Floyd's" last name through a Department of Public
Works employee who worked at the impound lot where the Red 2008 Toyota Highlander was
impounded after the attack. See id. at 107-08, 132-33. Based on the first and last name given by
Mr. Walker, police showed Mr. Walker a single photo of Floyd Clark. See id. at 108. Mr.
Walker confirmed that the man depicted in the photograph- the defendant- was one of his two
assailants.
At trial, Mr. Walker explained that he professed ignorance of his attacker's
identity in his initial report to the police because he had planned to kill Mr. Clark. He discarded
this plan and decided to identify Mr. Clark to the police after speaking to his wife. See Dec 8,
2010 Trial Tr. at 105. Mr. Walker admitted at trial that he had lied to the police during his initial
encounter when he denied knowing his attacker. See id. at 139. Shortly thereafter, however, he
testified that "Actually, I never lied. I don't feel I lied." See id.
After he identified Mr. Clark to the police, Mr. Walker testified before a grand
jury. Dec. 8, 2010 Trial Tr. at 125 (discussing Government Exhibit 1). Although Mr. Walker
testified at trial pursuant to an agreement immunizing him from prosecution for certain crimes,
no such agreement was in place at the time of his grand jury testimony concerning the crimes.
See id. at 126-31. Following Mr. Walker's testimony, the grand jury indicted Mr. Clark.
2. Testimony of Lay Witnesses
Yonata Kalbi, Christel Antoine, and Carmen Isler observed Mr. Walker and
another man on May 9, 2010. Although none of them identified Mr. Clark, their testimony
corroborated certain other aspects of Mr. Walker's description of the attack.
12

A21

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 13 of 49

Mr. Yo nata Kalbi, the store manager of a 7-Eleven, testified that he was working
at the cash register of a 7-Eleven located at 4199 Kenilworth Avenue in Bladensburg, Maryland
on May 6, 2009. See Dec. 8, 2010 Trial Tr. at 150-53. Mr. Kalbi testified that on that day a man
came into the store who appeared to be in a hurry: He came directly to the register and tried to
cut the line. The man bought a box of bandages and left without his change. See id. at 154, 15657, 170. Mr. Kalbi provided video surveillance footage taken during this interaction to the police
a few days later. See id. at 161-63. At trial, Mr. Kalbi reviewed the surveillance footage and
still frame images taken from it. He identified himself and pointed out the man who bought
bandages. See Dec. 8, 2010 Trial Tr. at 159-61 (citing Gov't Ex. 66). Mr. Kalbi further testified
that the man in the surveillance footage "looks like" the man who bought bandages on May 6,
2009. See id. at 163-67 (discussing Gov 't Ex. 7). At trial, Mr. Kalbi was not asked to identify

Mr. Clark as the man who bought the bandages.
Ms. Christel Antoine worked at the Kenilworth Avenue U-Store facility on May
6, 2009. That day, two men entered her store who were acting "unusual," in that they did not
come straight to the counter and did not make eye contact with Ms. Antoine at first. See Dec. 9,
2010 Trial Tr. at 11. One man was wearing a hat but the other was not. See id. at 13. The man
without the hat asked her to access an account for "Michael," which is Mr. Walker's first name.
See id. at 13, 16. Ms. Antoine responded that the system did not have a unit belonging to
someone of that name. Seeid. at 14. The man with the hat seemed agitated during the
exchange, and the two men began to leave. See id. at 17. The man with the hat returned to ask if
someone named "Pat" worked there, and Ms. Antoine said no. See id. at 18. After the man with
the hat left the U-Store, the man without the hat started to run across the street toward
Kenilworth Towers, and a red car picked up the man with the hat. See id. at 18-19.

13

A22

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 14 of 49

A detective showed a photo array to Ms. Antoine and asked her to identify anyone
who looked familiar. See Dec. 9, 2010 Trial Tr. at 19-20. She testified that she "got a better
look" at the man without the hat because he had made eye contact with her when asking for the
storage unit. See id. at 20-21. She explained that the two men looked like brothers. See id. at
22. She selected one photograph, No. 6, but could not determine precisely which one of the men
it depicted- she thought it looked like the man without the hat. See id. at 22-23. A police
witness later confirmed that the photo array contained a picture of Mr. Clark, but that the
photograph Ms. Antoine selected was not Mr. Clark's photo. See id. at 146. In fact, the
individual Ms. Antoine selected was incarcerated at the time that the two men visited the
U-Store. See id. at 146-49.
At trial, Ms. Antoine identified herself in the video surveillance footage from the
U-Store. See Dec. 9, 2010 Trial Tr. at 23-26 (citing Gov't Ex. 8). She also pointed out the man
without the hat who asked about a unit belonging to "Michael," as well as the man with the hat
who came back in to ask if "Paf' worked there. See id. at 31-32. She was not asked to identify
either man in the video as Mr. Clark.
Ms. Carmen Isler was the resident manager of Kenilworth Apartments across
Kenilworth Avenue from the U-Store. See Dec. 8, 2010 Trial Tr. at 174-75, 177-78. At trial,
she testified that on May 6, 2009, a man with a bandage on his forehead walked into the office
looking "nervous." See id. at 179-80. He was talking about "a car or something." See id. at
182. He made a call to the police, and possibly more calls, using the courtesy phone. See id. at
183. The police arrived a short time later. See id. at 183.

14

A23

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 15 of 49

3. Circumstantial Evidence
Mr. Walker offered the only direct evidence implicating Mr. Clark as one of the
perpetrators of the crimes. The government argued, however, that additional facts constituted
circumstantial evidence of Mr. Clark's guilt, most notably Mr. Clark's refusal to comply with
two court orders requiring him to submit to DNA tests and hair samples and his purported efforts
to evade arrest for the attack of Mr. Walker.
a. Physical Evidence and Refusal of DNA Sample
Officer Michael DePrince of the Metropolitan Police Department was a member
of the mobile crime scene unit on May 6, 2009. Dec. 9, 2010 Trial Tr. at 104. He processed a
red 2008 Toyota Highlander belonging to Mr. Walker's wife, from which he recovered a number
of items: a plastic bag from Downtown Locker Room, see id. at 111 (citing Gov't Ex. 4); a gold'

colored metal link,~ id. at 113-14 (citing Gov't Ex. 6); a shirt from the rear drivers' side of the
car that appeared to be stained with dried blood, see id. at 103, 106-07 (discussing Gov't Ex. 1);
a car's floor mat, stained with what appeared to be dried blood, see id. at 108-09 (discussing
Gov't Ex. 2); a box of Band-Aid brand bandages, see id. at 110-11 (discussing Gov't Ex. 3); and
a Deer Park brand plastic water bottle from the rear seat, see id. at 112-13.5 Officer DePrince
was not able to recover any usable fingerprints from the car, id. at 114, but he did collect "trace
evidenceH that could be tested for DNA, including skin cells, fibers, and hairs, see id. at 104.
Special Agent Chad Fleming of the Federal Bureau oflnvestigation'sViolent
Crime Task Force testified that his Wlit was responsible for investigating certain robberies,

5

Mr. Walker testified that his attacker tried to cover Mr. Walker's face with a bag

from Downtown Locker Room, tore a gold chain from arom1d his neck, struck a blow that drew
blood, gave Mr. Walker his own shirt, and cleaned and bandaged Mr. Walker's wound. See Part
II.A.l, supra.
15

A24

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 16 of 49

kidnappings, and wanted fugitives in Washington, D.C. and for booking certain arrestees.
Beginning in early 2010, arrestees processed at the FBI's Washington Field Office had their
fingerprints taken and were given a buccal swab (a sample of the cells from the cheek or mouth)
to collect DNA for forensic analysis. See Dec. 8, 2010 Trial Tr. at 185-87. Special Agent
Fleming helped to process the arrest of Mr. Clark on Apri120, 2010, at which time he took
fingerprints and a buccal swab from Mr. Clark. See id. at 185-86, 192-94. Mr. Clark agreed to
provide the samples, though it "took a little convincing" from Special Agent Fleming. Id. at 192.
Officer Tony Nwani of the Metropolitan Police Department worked on forensics
for the MPD mobile crime lab. See Dec. 8, 2010 Trial Tr. at 205. Several months after Mr.
Clark's arrest, Officer Nwani met with Mr. Clark to attempt to collect further samples. He first
attempted to collect DNA and hair samples from Mr. Clark on September 3, 2010. See id. at
207-08. Officer Nwani showed Mr. Clark an August30, 2010 order of this Court that authorized
collection of the samples. See id. at 209-10; see also DNA Order (indicating that the order was
signed on August 30, 2010 and filed on August 31, 201 0). The order does not have a seal or
long-form signature; instead, the order issued from "Paul L. Friedman, United States District
Judge,'' immediately above which appear the characters "lsr. See id. at 225-31. Mr. Clark
refused to provide DNA and hair samples, noting that he had previously given a saliva swab and
head hair. See id. at 208.
At trial, the parties stipulated that a hearing was held on September 16,2010. At
the hearing, the parties stipulated, the Court advised Mr. Clark that its August 30,2010 order
requiring provision of DNA samples was valid but that the Court would nevertheless re-issue a

16

A25

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 17 of 49

certified copy of that order. 6 The parties further stipulated that Mr. Clark was told during the
hearing that he risked prosecution and incarceration if he failed to provide DNA and hair
samples. See Dec. 8, 2010 Trial Tr. at 228-229.
Officer Nwani testified that he made another attempt to collect samples from Mr.
Clark on October 7, 2010, during which Mr. Clark's counsel was present. See Dec. 8, 2010 Trial
Tr. at 213. Officer Nwani presented the re-issued order authorizing the collection. See id. at
213-14,220 (referring to Gov't Ex. 11). The order features the Court's long-form signature,
rendered in handwriting script. See id. at 225-26. Through counsel, Mr. Clark again refused to
provide DNA or a hair sample. See id. at 218-19 (citing Gov't Ex. 12, Refusal Form).
At a pre-trial hearing on October 18,2010, the Court held Mr. Clark in contempt
of court and ordered him to be incarcerated until he complied with the order to provide samples,
or until he faced trial. See Contempt Order at 1-2. Mr. Clark never provided the samples, and
contempt was lifted only on December 8, 2010 at the commencement of trial. December 8, 2010
Minute Entry. As a consequence, Mr. Clark did not receive a time served deduction from his
sentence for the 49 days he served while in contempt of court. See Defendant's First
Memorandum in Aid of Sentencing at 3-4; Aug. 11, 2011 Sentencing Tr. at 30-31.
b. Purp01ted Efforts to Evade Arrest
Mr. Malcom Drewery, a courtroom deputy clerk in the Superior Court of the
District of Columbia, testified as an expert witness that defendants in the Superior Court receive
oral and written notice of court appearances and are warned of the penalties for failing to appear.

6

The Court re-issued the August 30,2010 order on the same day of the status
conference. The reissued order contained the Court's long-form signature but was otherwise
identical to the August 30, 2010 Order. See Dec. 8, 2010 Trial Tr. at 225-26; September 17,
2010 Notice of Corrected Docket Entry.
17

A26

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 18 of 49

See Dec. 9, 2010 Trial Tr. at 82-83. Mr. Drewery testified that Mr. Clark appeared as required in
the Superior Court for charges on felony case number 2008 CF212922, which is unrelated to the
instant case, from June 2008 to April2009. He failed to appear, however, for a June 15,2009
trial in that case. See id. at 85-94 (citing Gov't Ex. 19, a copy of the court file 2008
CF2012922).
Ms. Leslie Warner is the mother of one of Mr. Clark's children. See Dec. 9, 2010
Trial Tr. at 38. Ms. Warner testified that she saw Mr. Clark in the spring of2009. Mr. Clark
told her that he was moving to Georgia without specific explanation, but Ms. Warner testified
that Mr. Clark had "always talked about Georgia," had suggested he needed to take care of some
business there, and had indicated that members of his family lived there. See id. at 43-44,58,69.
In 2008, Ms. Warner testified, Mr. Walker was using a phone number with area code 404, a
Georgia area code. Id. at 59. When he left for Georgia, Mr. Clark promised Ms. Warner that he
would return for the birth of their son, but he was not present for the birth on July 26, 2009. See
id. at 38. He returned in the fall of2009 and borrowed Ms. Warner's car. Ms. Warner testified
that, one day, Mr. Clark failed to pick her up from work as promised, instead accusing her of
sending the police after him. Mr. Clark abandoned the car, and when Ms. Warner recovered it
police approached her to ask about Mr. Clark. Id. at 46-51.
Ms. Mercedy's [sic] Phillips is the mother of two of Mr. Clark's children. See
Dec. 9, 2010 Trial Tr. at 69. She is a corrections officer. See id. She has known Mr. Clark for
many years and told police that she communicated with Mr. Clark on a phone number beginning
with area code 404. See id. at 71-73; see also id. at 59 (indicating that 404 is a Georgia area
code). Ms. Phillips ended her romantic relationship with Mr. Clark in May 2008. See id. at 74.

18

A27

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 19 of 49

Detective Elmer Baylor, Jr. of the Metropolitan Police Department testified that
he suspected that Mr. Walker was lying during their initial encounter, during which Mr. Walker
claimed that he did not know who attacked him. See Dec. 9, 2010 Trial Tr. at 193·95. Once Mr.
Walker identified Floyd Clark as one of his assailants, Detective Baylor attempted without
success during the spring and summer of2009 to locate Mr. Clark and arrest him. See Dec. 9,
2010 Trial Tr. at 152-54. On October 14,2009, Detective Baylor received a tip that Mr. Clark
was in the Washington, D.C. area. See id. at 156. Detective Baylor went to Ms. Warner's
residence in Bowie, Maryland, where he saw her SUV and set up surveillance that night. See id.
at 157. Detective Baylor began tailing the SUV the next day after he received a tip from a team
member that Mr. Clark may have been driving it. See id. at 160. He determined that Mr. Clark
was not driving the SUV but noticed a second person in the passenger seat with the seat all the
way down. See id. at 161. When Officer Baylor made eye contact with the driver, he "abruptly"
pulled off the street and onto another course. I d.
Detective Baylor tried to follow the SUV but lost sight of it. See Dec. 9, 2010
Trial Tr. at 161. He soon found the car "abandoned" on North Capitol Street between V Street
and Rhode Island Avenue. See id. at 162. Mr. Clark retuned to the SUV about two hours later.
He saw a man who resembled the image of Floyd Clark. See id. at 163-64. Detective Baylor
called for backup in order to arrest Mr. Clark, but lost sight of him again. See id. at 165-66.
When Leslie Warner later entered the SUV, police officers approached and asked about Mr.
Clark. See id. at 166.
The government offered photographs of the location where the SUV was found
and a demonstrative exhibit tracking the route of the SUV. See id. at 166-68 (discussing Gov't
Exs. 31 and 32). The government also offered Exhibits 21 and 22, pictures of Mr. Clark from

19

A28

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 20 of 49

2009. See id. at 190-91. Finally, the government introduced Exhibit 13, AT&T phone records
from Mr. Clark's account for a phone number with area code 404, a Georgia area code.

B. The Recanting Affidavit
Mr. Clark filed the instant Section 2255 motion pro ~ on April 2, 2015, more
than four years after his conviction at trial. The first ground cited for vacating his sentence was
newly discovered evidence: an August 2014letter to Mr. Clark from Ronetta Johnson, Chief
Investigator at Above and Beyond Investigating, LLC, containing a witness statement from Mr.
Walker. The statement was handwritten in black ink by Ms. Johnson, amended in several
respects by Mr. Walker in blue ink, and signed on each page by Mr. Walker in blue ink and Ms.
Johnson, as witness, in black ink. The final page of the statement contains a certification that
Mr. Walker had read the statement and that ''this statement is true, correct, and complete to the
best of my knowledge," below which is Mr. Walker's signature in blue ink. See Recanting
Affidavit at 12: Ms. Johnson signed as witness in black ink, and the statement is notarized. Id.
Mr. Walker's statement recants the central aspect of his trial testimony: his
identification of Mr. Clark as one of the two men who attacked him on May 6, 2009. In the
affidavit Mr. Walker says that, in fact, he "did not know who" committed the crimes against him,
and that he said as much to the police when they arrived at Kenilworth Towers shortly after his
escape. See Recanting Affidavit at 4. The recanting affidavit explains that "I changed my story
to the police and named Floyd because I wanted to seek revenge against him because I was mad
since finding out about an allegation that he was having an [sic] sexual encounter with my
wife ...." Id. at 4-5. The affidavit contains a second motive as well: Mr. Walker alleges that
the police encouraged me to come up with a story and gave me a
couple of days to do so. 1 made up a lot of details to make the story
sound believable that Floyd was the suspect. I was being threatened
20

A29

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 21 of 49

by the police to help them make a case. I was on probation, so the
police told me that they could see to it that my judge revoked my
probation ....
Id. at 6-7. Mr. Walker did not elaborate on which of the "many details" he made up, but the
affidavit is unambiguous in its primary thrust: "I know for a fact that Floyd did not commit any
crimes at all against me." See id. at 10. In explaining why he later decided to recant his trial
testimony, Mr. Walker remarked that he
felt bad since Floyd was convicted but I could not change my story
since going to the grand jury.... Once I found out that Floyd really
did not sleep with my wife, I wanted to correct this wrong but was
scared to do so. I have told my wife that I was going to make it
right, which is why I am coming forward now.
See Recanting Affidavit at 10-12.
Shortly before the evidentiary hearing on Mr. Clark's Section 2255 motion, Mr.
Clark filed a motion to admit the affidavit itself in evidence, anticipating that Mr. Walker might
decline to testify at the hearing. See Hearsay Mot. at 2.
C. The Evidentiary Hearing

On June 20, 2016, the Court held an evidentiary hearing on the Section 2255
motion and heard oral argument on Mr. Clark's motion to admit hearsay. As Mr. Clark
anticipated, Mr. Walker invoked his Fifth Amendment privilege against self-incrimination and
refused to answer questions about his purported recantation for fear that doing so could expose
him to criminal liability for perjury. See June 20,2016 Hr'g Tr. at 10-12,21-25. The Court
concluded that Mr. Walker properly invoked the privilege as to both the substance of the
recantation and the circumstances surrounding his decision to sign the affidavit. See id. at 16-18,
25-26. The Court determined that it lacked authority to grant use immunity to Mr. Walker absent
a request from the United States, a request the government refused to make. See United States v.
21

A30

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 22 of 49

Clark, 325 F. Supp. 3d 191, 194 (D.D.C. 2018); June 20,2016 Hr'g Tr. at 28,32-33. The Court
then heard testimony from three witnesses regarding the affidavit and regarding Mr. Walker's
statements to them concerning the affidavit.
Ms. Ronetta Johnson, Chief Investigator at Above and Beyond Investigations,
LLC, testified that one of Mr. Clark's family members contacted her to indicate that Mr. Walker
was willing to speak to her about Mr. Clark's case. See June 20,2016 Hr'g Tr. at 36-38,44-45,
49. Soon thereafter, on August 1, 2014, Mr. Walker came to her office for an interview. Ms.
Johnson testified that she drafted the recanting affidavit for Mr. Walker based on their
conversation, after which Mr. Walker reviewed the statement, made revisions, and signed each
page. Ms. Johnson stated that she did not suggest any changes to Mr. Walker, that he signed the
affidavit voluntarily, and that she gave no advice concerning the expiration of any statute of
limitations for perjury. Ms. Johnson further testified that she had the affidavit notarized that
same day by a notary in her office building. See Un'ited States v. Clark, 325 F. Supp. 3d at 197.
See also June 20,2016 Hr'g Tr. at 36-52.
Mr. Michael Hailey, supervisor of the Witness SecuritY Section of the U.S.
Attorney's Office for the District of Columbia, testified that Mr. Walker called the U.S.
Attorney's Office in February of2015 to express concerns for his safety. Mr. Walker said that a
friend of Mr. Clark's had approached Mr. Walker in a barbershop and told him that Mr. Clark's
case was ''up for appeal" and that Mr. Walker could change his story. Mr. Hailey further testified
that, during their meeting, Mr. Walker said that the investigator visited his home to take a
statement and that the investigator advised Mr. Walker on the statute of limitations for perjury.
Mr. Hailey testified that, by Mr. Walker's account, he read and signed the recantation drafted by

22

A31

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 23 of 49

the investigator ..knowing that what he had signed was not the truth." United States v. Clark,
325 F. Supp. 3d. at 194-95. See also June 20, 2016 Hr'g Tr. at 57-62.
Mr. Tommy Miller, lead criminal investigator for the Criminal Investigations and
Intelligence Unit of the U.S. Attorney's Office for the District of Columbia, testified that he met
on June 15,2016 with Mr. Walker, Mr. Walker's counsel, and Assistant U.S. Attorney James
Sweeney. Mr. Miller testified about Mr. Walker's comments on the affidavit in that meeting:
that the affidavit reflected "the investigator's words, not [Mr. Walker's];" that "[t]he investigator
wrote [the statement] on her own" without information from Mr. Walker; and that Mr. Walker
signed the statement written by the investigator without reading it. According to Mr. Miller, Mr.
Walker explained in the June 2016 meeting that his recanting affidavit was false and that it was
indeed Mr. Clark who had attacked him on May 6, 2009. Mr. Walker said that he signed the
affidavit because he wanted leniency for Mr. Clark and did not want him to serve any additional
time. United States v. Clark, 325 F. Supp. 3d. at 195. See also June 20,2016 Hr'g Tr. at 73-78.
The Court decided to admit the affidavit under the hearsay exception for
statements against interest made by unavailable declarants that are supported by corroborating
circumstances indicating their trustworthiness. United States v. Clark, 325 F. Supp. 3d. at 198
(citing FED. R. CIV. P. 804(b)(3)). In so ruling, however, the Court emphasized that its decision
to admit the affidavit did not constitute a finding that Mr. Walker's affidavit is more credible
than his trial testimony or more credible than what he told the two representatives of the U.S.
Attorney's Office. See id. at 196. Nor did the Court need to decide whether to credit
Ms. Johnson's testimony or the testimony of Mr. Hailey and Mr. Miller regarding the
conversations they had with Mr. Walker, or whether the recanting affidavit is sufficiently
persuasive to entitle Mr. Clark to Section 2255 relief. See id. For the reasons described in the

23

A32

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 24 of 49

Court's opinion of September 18,2018, the affidavit was supported by corroboration sufficient
to admit it under Rule 804(b)(3), as were Mr. Walker's statements to Mr. Hailey and Mr. Miller.
See United States v. Clark, 325 F. Supp. 3d. at 198. 7 In deciding to admit the affidavit, the Court
specifically reserved the central questions for later resolution: the question of"the truth of what
is asserted by [Mr. Walker's] hearsay statement[], the credibility of witnesses, and the weight to
be accorded evidence." See id. The Court now turns to these questions.
III.

NEW EVIDENCE CLAIM: ANALYSIS
A. Legal Standard

I. Standards for Rule 33 New Trial Motions and Section 2255 Collateral Attacks

The parties' papers raise the possibility that Mr. Clark's Section 2255 motion may
be time-barred. See Section 2255 Opp'n at 10, n. 3; Section 2255 Second Reply at 14-15. It is
not. Ru1e 33 of the Federal Ru1es of Criminal Procedure provides that a court may vacate a
judgment and grant a new trial "if the interest of justice so requires." FED. R. CRIM. P. 33(a).
The Rule also provides that "[a]ny motion for a new trial grounded on newly discovered
evidence must be filed within 3 years after the verdict or finding of guilty." FED. R. CRIM. P.
33(b)(l). Mr. Clark was found guilty in December of2010 and filed the instant motion- which

relies in part on claims of new evidence (the recanting affidavit)- in April of2015. If the Ru1e
33 time limit applies, therefore, Mr. Clark's new evidence claim is time-barred. By contrast,

7

The Court also determined that it wou1d consider the testimony of Mr. Hailey and
Mr. Miller if the United States chose to call them as witnesses at the hearing on the Section 2255
motion. On January 10,2019, the Court held a supplemental hearing on the Section 2255 motion
as it relates to the affidavit. The parties presented argument but did not introduce any additional
witnesses. Having determined that Mr. Walker's statements to Mr. Hailey and Mr. Miller were
supported by sufficient indicia of trustworthiness, the Court admits those statements and has
considered them here.
24

A33

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 25 of 49

Section 2255 motions must be filed within a one-year period that begins to run, as relevant here,
on "the date on which the facts supporting the claim or claims presented could have been
discovered through the exercise of due diligence." 28 U.S.C. § 2255(£)(4). It can be inferred
from Ms. Johnson's testimony that she first became aware of Mr. Walker's possible recantation
only shortly before she met with him on August 1, 2014, and Mr. Clark only received Mr.
Walker's affidavit in August of2014. He filed the instant motion in April of2015, well within
the one year allowed by Section 2255. The United States does not affirmatively argue that the
Rule 33 time bar must apply. See Section 2255 Opp'n at 10, n. 3. And, indeed, the Rule 33 time
limit does not bar Mr. Walkees petition.
One early D.C. Circuit case suggests that Section 2255 motions based on the
recantation of a witness's trial testimony may be subject to the Rule 33 three-year time limit. In
United States v. Kearney, 682 F. 2d 214,218-19 (D.C. Cir. 1982), the court of appeals- without
elaboration- characterized a defendant's Section 2255 motion as "basically a motion for a new
trial based on newly discovered evidence filed pursuant to Fed. R. Crim. P. 33." The court noted
that the motion was "not filed in the timely fashion as required by that rule," but found it "not
necessary to rely on [the Rule 33 time bar]" to deny the motion because it affirmed the District
Court's denial of the Section 2255 motion on its merits. Id. See also United States v. Fields,
2006 U.S. Dist. LEXIS 2849, *5-6 (D.D.C. Jan. 18, 2006) (finding that defendant's Section 2255
motion based on recantations was time-barred under Rule 33, apparently because Rule 33 by its
terms broadly embraces "any motion for a new trial grounded on newly discovered evidence")
(quoting FED. R. CRIM. P. 33). Neither Kearney nor Fields offers an explanation for why the
Rule 33 limitations period should be superimposed onto Section 2255 motions.

25

A34

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 26 of 49

Despite its observation in Kearney, the D.C. Circuit has never required
application of the Rule 33 time bar to Section 2255 motions. Indeed, it would seem
inappropriate to do so, as the differing purposes of Rule 33 and Section 2255 counsel against
imposing the Rule 33 time limit on colorable Section 2255 claims. Although the two
mechanisms have substantial overlap, Rule 33 is clearly a step in the criminal proceeding, while
Section 2255 is "arguably an independent civil action." 3 CHARLES A. WRIGHT & SARAHN.
WELLING, FED. PRAC. & PROC. CR1M. § 591 (4th ed. 2011). Rule 33 predated Section 2255 and
contains broader grounds for relief: whenever the "interest of justice" requires. See id. Rule 33
was originally intended to correct "certain problems ... involved in the ending of a term of court
and the start of another." See Duggins v. United States, 240 F.2d 479,483 (6th Cir. 1957). "It
was not [Rule 33's] purpose to meet the problems involved in habeas corpus proceedings or a
collateral attack upon a judgment." I d. Conversely, it is those very proceedings and attacks with
which Section 2255 is concerned. A proceeding under 28 U.S.C. § 2255 is "an independent and
collateral inquiry into the validity of the conviction." Rubensteinv. United States, 227 F.2d 638,
642 (1Oth Cir. 1955). Such an independent inquiry appropriately commands a limitations period
different from the period governing direct attack of the judgment. Current practice cautions
against recharacterizing Section 2255 and Rule 33 motions without granting movants the
opportunity to amend. See 3 WRIGHT & WELLING§ 591. The substance of the grounds for relief
determine whether a motion should be considered under Rule 33 or Section 2255. Id.
In short, Rule 33 and Section 2255 offer different mechanisms of relief for
different kinds of claims. "Constitutional challenges to a conviction arising from conduct at
trial ... are generally brought pursuant to§ 2255." United States v; Campbell, 2004 Lexis
30260, at *5-6 (D.D.C. Aug. 23, 2004) (quotations omitted). That is precisely the type of

26

A35

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 27 of 49

challenge that Mr. Clark purports to assert: "a Fifth Amendment Claim that be bas been deprived
of his liberty without due process of law based upon the recantation of the testimony of the only
witness who directly incriminated him at trial." See Section 2255 Second Reply at 15. In
United States v. Campbell, Judge Hogan faced the similar question of whether to apply the Ru1e
33 time bar to a claim styled as a Section 2255 motion. The motion argued a potential violation
of prosecutors' constitutional obligation to disclose exculpatory evidence. See United States v.
Campbell. 2004 Lexis 30260 at *1. The court opted to "construe the motion as one brought
pursuant to 28 U.S.C. § 2255." Id. at *5-6. That is because "[m]otions nominally under a Rule
of Criminal Procedure, but raising arguments within the scope of§ 2255, must be treated as
collateral attacks." Id. (quoting United States v. Canim), 212 F.3d 383, 384 (7th Cir. 2000)). Mr.
Clark has characterized his motion as a Section 2255 motion, and that description is appropriate
in light of the relief sought. The Court will not apply the Rule 33 time bar to the motion.

2. Section 2255 Motions Based on New Evidence of Recantations
Under 28 U.S.C. § 2255, a federal prisoner may move to vacate, set aside, or
correct a sentence that was "imposed in violation of the Constitution or laws of the United States,
... [or] was in excess of the maximum authorized by law, or is otherwise subject to collateral
attack.'' 28 U.S.C. § 2255(a). "The circumstances under which such a motion will be granted,
however, are limited in light of the premium placed on the finality of judgments and the
opportunities prisoners have to raise most of their objections during trial or on direct appeal."
United States v. Henry.. 821 F. Supp. 2d 249,253 (D.D.C. 2011). Furthermore, "the recognized
difficulties imposed on the government in re-prosecuting criminal cases long after" the relevant
events must be balanced against granting new trials. United States v. Kearney, 682 F.2d at 219.
Section 2255 is "not a substitute for direct appeal, so petitioner must show a good deal more than
27

A36

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 28 of 49

would be sufficient [to warrant relief] on a direct appeal." United States v. Mahdi, 172 F. Supp.
3d 57, 63 (D.D.C. 2016) (quoting United Slates v~ Pollard, 959 F.2d 1011, 1020 (D.C. Cir.
1992)); see also United States v. He11ry, 821 F. Supp. 2d at 253.
This showing is particularly important for Section 2255 motions premised on
recantations. Of course, courts must give due consideration to any colorable claim based on
recanted testimony, "out of a concern for the possibility that the integrity of the trial's truthfinding function was compromised through a fraud on the Court." See Avalos v. United States,
2014 WL 12709022 at *2 (E.D. Va., Aug. 19, 2014). Even so, "[i]n this Circuit, recanting
affidavits and witnesses are looked upon with the utmost suspicion by the courts." United States
v. Mahdi, 172 F. Supp. 3d at 68 (quoting United States v. Kearney, 682 F.2d at 219).
Recantations attract suspicion from courts because, where a trial witness later recants sworn
testimony, ''the witness is either lying now, was lying then, or lied both times." See United
States v. Earles. 983 F. Supp. 1236, 1239 (N.D. Iowa 1997). The "stability and finality of
verdicts would be greatly disturbed if courts were too ready to entertain testimony from
witnesses who have changed their minds, or who claim to have lied at the trial." Id. at 1248
(quoting United States v. Grey Bear, 116 F.3d 349, 350 (8th Cir. 1997)). In fact, a motion for a
new trial based on this kind of evidence often may be decided on the record alone, without an
evidentiary hearing. See United States v. Kearney, 682 F.2d at 219 (quoting United States.v.
Ward, 544 F.2d 975 (8th Cir. 1976) ("[T]he necessity for a hearing is diminished in cases
involving challenged testimony where the trial judge bas had an opportunity to observe the
demeanor and weigh the credibility of the witness at trial.")
Courts in this Circuit will find that Section 2255 petitioners are eligible for relief
based on a witness recantation only if two requirements are met. First, the Court must be

28

A37

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 29 of 49

"reasonably well satisfied" that the witness's trial testimony was in fact false. See United States.
v. Henry, 821 F. Supp. 2d at 258. The petitioner bears the burden of providing credible evidence
that allows the Court to reach this conclusion. See id. (citing United States v. Mackin, 561 F.2d
958 (D.C. Cir. 1977)). Second, the ''proponent of post-conviction relief bears the further burden
of showing that, absent the recanted testimony, a new trial would probably produce an acquittal."
United States v. Henry, 821 F. Supp. 2d at 260 (quoting United States v. Williams, 233 F.3d 592,
593 {D.C. Cir. 2000)) {quotations omitted). See also United States v. Kearney, 662 F.2d at 220;
United States v. Mahdi, 172 F. Supp. 3d at 68.

B. The Recanting Affidavit Cannot Support the Section 2255 Motion
Applying the two-prong test that is used in the D.C. Circuit, the Court finds that a
new trial conducted without Mr. Walker's recanted testimony would "probably result in an
acquittal." See United States v. Henry, 821 F. Supp. 2d at 260. The Court nevertheless must
deny Mr. Clark's Section 2255 motion insofar as it is based on Mr. Walker's recanting affidavit,
because it cannot be "reasonably well satisfied" that the trial testimony linking Mr. Clark to the
crime was false. See id. at 258-60. This conclusion is dispositive, as both prongs of the test
must be satisfied. If the recantation were sufficient to establish the falsity of the trial testimony,
however- for example, under a standard more lenient than requiring courts to be "reasonably
well satisfied" of the trial testimony's falsity - the outcome of Mr. Clark's motion would be
different.
1. The Court Cannot be "Reasonably Well Satisfied" That the Trial Evidence was False
The Court cannot be confident enough in the recanting affidavit to be "reasonably
well satisfied" that Mr. Walker's testimony at trial was false. In the context of Section 2255

29

A38

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 30 of 49

motions based on such new evidence, the "reasonably well satisfied" prong is an exacting
standard that defendants rarely attain. See United States v. Mahdi, 172 F. Supp. 3d at 67 ~68
(quoting United States v. Kearney, 682 F.2d at 219) ("In this Circuit, recanting affidavits and
witnesses are looked upon with the utmost suspicion by the courts.~'). Recent recantation cases
from this Circuit show a fact-specific inquiry in which judges consider a diverse array of factors
to determine whether a particular recantation meets the "reasonably well satisfied" test. For
example, in United States v. Henry, the court considered seven separate factors: the degree to
which the recanted testimony had already been tested by cross examination at trial; the
opportunity the court had to observe the recanting witness's demeanor at trial and the evidence
corroborating the trial testimony; whether there was some explanation for the recanting witness's
knowledge of facts about the crime other than having observed them directly; the length of time
between the trial testimony and the recantation; the possibility that the recanting witness would
appear in court to testify about the recantation; whether the threat of a perjury prosecution would
effectively encourage the recanting witness to be truthful; and the nature of the relationship
between the recanting witness and the defendant. See 821 F. Supp. 2d at 258-60. Similarly, in
tJn:ited States v. Mahdi, the court den:ied a Section 2255 motion after weighing the degree to
which the recanted testimony was corroborated by other evidence; the recanting affiant's motive
to falsify and his explanation for recanting; and the lengthy period between the trial testimony
and the recantation. See 172 F. Supp. 3d at 67-70.
Upon considering the relevant factors in the instant case, the Court simply cannot
be reasonably well satisfied that Mr. Walker's trial testimony was false. First, Mr. Walker
waited almost four years after trial before deciding to recant, and courts are justifiably skeptical
of the motives of affiants who wait many years before recanting. Such a lengthy delay "cast[s]

30

A39

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 31 of 49

doubt on the veracity of his recantation." See United States v. Henry, 821 F. Supp. 3d at 259
(referring to gap of"more than four-and-a-half-years"). See United States v. Mahdi, 172 F.
Supp. 3d at 69 ("the Court finds that [recanting witness's] identification of [another person] as
the ... shooter eleven years after the trial is totally unbelievable" where the recanting witness
had admitted to perjuring himself in the past and where the court doubted his explanation for
recanting).
Second, Mr. Walker's trial testimony has already been subjected to rigorous cross
examination and argument. Although the trial jury could not have analyzed Mr. Walker's
recantation, it did hear Mr. Walker admit to lying to the police about the identity of the attacker
and his reasons for equivocating. See Dec. 8, 2010 Trial Tr. at 139; id. at 106-08, 132. And the
jury learned of his prior convictions for crimes involving dishonesty (forgery and obtaining
money by false pretenses). Id. at 61. Despite this knowledge, the jury still gave Mr. Walker's
testimony enough weight to convict Mr. Clark. Mr. Walker has now invoked his Fifth
Amendment privilege against self-incrimination, so there is little reason to believe that he will be
available for cross examination on the details of his recantation (or its subsequent withdrawal).
Third, the relationship between Mr. Clark and Mr. Walker is longstanding and, on
some of the evidence, has been reasonably close. Before asserting his Fifth Amendment
privilege, the one substantive matter to which Mr. Walker did testify during the 2016 evidentiary
hearing on the affidavit is that he and Mr. Clark were "childhood friends" and have known each
other "at least over 20 years." See June 20,2016 Hr'g Tr. at 10. They lived in the same
neighborhood. Dec. 8, 2010 Trial Tr. at 62. The two men were in business together- the drug
business- and they saw each other several times a week. Mr. Walker had Mr. Clark's number
saved on his phone, and on at least some days they spoke multiple times. See id. at 66-69. Mr.

31

A40

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 32 of 49

Walker agreed that he had developed a "significant relationship with the defendant," and implied
that in 2008, the year before the attack, it was a "serious, really serious" business relationship.
See id. at 63. Their families knew each other well enough that Mr. Walker's wife was a
babysitter for Mr. Clark's daughter. See Recanting Affidavit at 6. In the recanting affidavit, Mr.
Walker admits that Mr. Clark ''was close to me., Id.
This close personal and professional relationship between Mr. Clark and Mr.
Walker, enduring over an extended period of time, casts doubt on the veracity of the recanting
affidavit. The evidence admits of two possibilities. If the Court credits the recanting afftdavit,
Mr. Walker knew that Mr. Clark did not commit the crime but was angry enough at Mr; Clark to
falsely implicate him and lie about it while under oath at trial. If the Court credits the trial
testimony, Mr. Walker knew Mr. Clark committed the crime and was angry enough at him to lie
to the police, decide to kill Mr. Clark, and begin discussing these plans with others. See Dec. 8,
2010 Trial Tr. at 105-106. In either event, the Court finds that a relationship existed that may
have interfered with Mr. Walker's desire to respect the law and speak truthfully about Mr. Clark.
It is sufficiently close to cast doubt on the candor of Mr. Walker's statements on this matter. Cf.
United States v. Henry, 821 F. Supp. 2d at 260 (explaining that "[c]ourts have routinely found
that recantations by family members are entitled to lesser weight," and noting the "close
relationship" between the defendant and the recanting witness, defendant's nephew).
Fourth, the Court considers whether the trial testimony that Mr. Walker now
recants was corroborated by other evidence from the trial. Unlike the recanted testimony in
Henry: and Mahdi, Mr. Walker's trial testimony was not directly buttressed by the testimony
from other witnesses at Mr. Clark's trial. Cf. United States v. Henry, 821 F. Supp. 3d at 259
(noting that the court could not be reasonably well satisfied that the trial testimony was false

32

A41

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 33 of 49

because it was "corroborated by independent testimony offered by several other witnesses" who
observed events at issue in the recanted trial testimony); United States v. Mahdi,l72 F. Supp. 3d
at 69 (noting that, where two other eyewitnesses identified the defendant as the gunman who
killed the victim, "extensive corroboration of [recanting witness's] trial testimony convinces the
Court that his original account of the [victim's] murder was truthful"). In this case, by contrast,
Mr. Walker was the only witness to identify Mr. Clark as one of the assailants.
To be sure, the testimony of other witnesses at trial did corroborate the fact that
Mr. Walker was the victim of a crime and many details of that crime. For example, Officer
DePrince's testimony tends to corroborate some of Mr. Walker's claims about the early phase of
the events: that a Red Toyota Highlander was involved (Officer DePrince processed a red 2008
Toyota highlander after the attacks); that an assailant tore a gold chain from Mr. Walker's neck
(a gold link was recovered from the Highlander); that the assailant tried to mask him with a bag
from Downtown Locker Room (Office DePrince recovered a bag from that store); and that the
attack bloodied Mr. Walker's shirt to the extent that he had to discard it (Officer DePrince
recovered a bloody shirt from the car). See Part II.A.3, supra. Furthermore, lay witnesses
Yonata Kalbi, Christel Antoine, and Carmen Isler corroborated certain aspects ofMr. Walker's
account of the events at the 7-Eleven, the storage facility, and Kenilworth Towers, respectively.
See Part II.A.2, supra. But this evidence does little to corroborate the testimony that Mr. Walker
actually recanted- namely, that it was Mr. Clark who committed the crime. Neither Ms. Kalbi,
Ms. Antoine, nor Ms. Isler identified Mr. Clark during their testimony.
There is other circumstantial evidence, however, that offers some corroboration of
Mr. Walker's more specific claims at trial: that Mr. Clark was involved in these events.
Undisputed testimony from Mr. Walker suggests that he was well-acquainted with his attacker.

33

A42

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 34 of 49

For example, while his assailant was holding Mr. Walker captive and attempting to rob him
during a circuitous drive around Washington, D.C. and Maryland, the attacker evidently took the
time to stop for medical supplies, to wash blood from Mr. Walker's face, and to apply a bandage
to his wound. The attacker gave Mr. Walker a shirt. He even apologized to Mr. Walker and
gave him time to rest and recover - a brief respite before the assailant resumed his violent
attempts to steal $150,000. See Dec. 8, 2010 Trial Tr. at 95-96. To put it mildly, these are not
usual features of an armed robbery. They suggest that Mr. Walker and his assailant had a
relationship that predated the crime, which may corroborate Mr. Walker's identification of Mr.
Clark as one of the assailants. Mr. Walker's identification of Mr. Clark is also corroborated by
circumstantial evidence that might suggest consciousness of guilt: Mr. Clark's flight to Georgia
in the face of the charges against him and his refusals to provide a DNA sample. See also Dec.
8, 2010 Trial Tr. at 8, 194-200.

In short, corroboration of Mr. Walker's trial testimony by other trial evidence
takes one of two forms. There is circumstantial evidence offering some (albeit indirect) support
for Mr. Walker's identification of Mr. Clark as the assailant. And there is evidence that goes to
matters that have not been recanted (with regard to the general course of the criminal conduct).
Unlike the circumstances present in both Mahdi and~. there is no trial evidence that directly
confirms the recanted testimony or otherwise disproves the recantation. Thus, the degree of
corroboration does not itself require Mr. Walker's recantation to be discarded. Ultimately,
however, the three factors discussed above- the lengthy interval between trial and recantation,
the fact that the trial testimony was already tested for credibility, and the relationship between
the witness and the defendant- undermine the Court's trust in Mr. Walker's recanting affidavit.

34

A43

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 35 of 49

Finally, the Court has no adequate basis to determine which of the many accounts
Mr. Walker has offered in the past ten years is the truth. On the day of the attack in May 2009,

Mr. Walker told the police that he did not know his attacker. See Dec. 8, 2010 Trial Tr. at 132;
Dec. 9, 2010 Trial Tr. at 137. Six days later, he told the police that his attacker was a man
named Floyd. Dec. 8, 2010 Trial Tr. at 137. Thereafter, he gave Floyd Clark's surname to the
police and confirmed that a photo of Mr. Clark was a photo of the man who attacked him. Dec.
9, 2010 Trial Tr. at 140-142 (referring to Government Exhibit 16). Mr. Walker repeated this
identification while testifying under oath to the grand jury in May 2010 and while testifying
under oath at trial in December 2010. See Dec. 8, 2010 Trial Tr. at 125. Three and a half years
later, in August 2014, Mr. Walker executed a sworn affidavit to recant his accusation of Mr.
Clark. See Recanting Affidavit. Later still, he withdrew his recantation and offered two
different accounts of falsely executing the affidavit: first to Mr. Hailey in February 2015, and
then in June 2016 to Mr. Miller. See United States v. Clark, 325 F. Supp. 3d. at 194-95. Even as
he was attempting to withdraw his recantation, Mr. Walker did not present a consistent
explanation of how and why he executed the recanting affidavit. He told Mr. Hailey that the
recanting affidavit was motivated by fear for his safety and that he did read the affidavit before
signing; he told Mr. Miller that the affidavit was motivated by a desire for leniency for Mr. Clark
and that he did not read the affidavit before signing. See June 20, 2016 Hr'g Tr. at 57-62,73-78.
Nearly the only thing to emerge clearly from this morass is that Michael Walker lied under oath.
In these circumstances, the Court cannot be "reasonably well satisfied" that the
trial evidence of Mr. Clark's involvement is false. By its very terms this is a subjective standard;
applying it entails the Court's own assessment of how confident it can be in the recanting
affidavit. Cf. United States v. Henry, 821 F. Supp. 2d at 258-60. In the context of the high bar

35

A44

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 36 of 49

required of Section 2255 motions generally, and the skepticism with which courts regard
recantations specifically, this Court has little confidence in the recanting affidavit. This Court is
reasonably well satisfied that Mr. Walker was a victim of a crime, and that he told conflicting
stories about his attackers. The Court holds, however, that Mr. Clark has not met his burden to
produce credible evidence sufficient for the Court to be "reasonably well satisfied" of the falsity
of the trial evidence concerning Mr. Clark's involvement in the crime. See Lopezv. Miller, 915
F. Supp. 2d 373,405 (E.D.N.Y. 2013) ("[T]he court finds [the recantations] reliable to the extent
they establish the limited proposition that [the witness] provided multiple inconsistent accounts
of the shooting before, during, and after trial ...."). Accordingly, the Court concludes that Mr.
Clark's Section 2255 motion cannot be granted on the basis of the new evidence in Mr. Walker's
affidavit.
2. A New Trial without the Recanted Testimony Would Probably Lead to
Mr. Clark's Acquittal
The "reasonably well satisfied" prong of the Section 2255 test is itself dispositive
of Mr. Clark's motion. As noted, it is a high bar, and Mr. Clark cannot sunnount it. Thus,
unfortunately for Mr. Clark, whether he could satisfy the second prong- whether a new trial
absent the recanted testimony would probably acquit the defendant- is academic. Cf. United
States v. Mahdi, 172 F. Supp. 3d at 68.
On this prong of the test, however, Mr. Walker fares much better. The
government would have little to offer at a new trial in which Mr. Walker testified just as he had
before, but simply did not identifY Mr. Clark. The prosecutor acknowledged as much at trial.
See Dec. 8, 20 I 0 Trial Tr. at 11 (describing the importance of evidence that corroborates Mr.
Walker's account and noting that "this is going to come down to the complaining witness, and
whether the jury believes the complaining witness"). Other than Mr. Walker's confident
36

A45

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 37 of 49

identification of Mr. Clark at trial, there is no direct evidence to connect Mr. Clark to these
dangerous events. Whatever weight the circumstantial evidence discussed above may have
carried in the context of the full testimony at the previous trial, the Court cannot say that any
rational jury would convict Mr. Clark at a new trial featuring all of the original evidence except,
crucially, for Mr. Walker's identification. The same result follows if a new trial jury considered
all of the first trial's evidence plus the new evidence contained in the recanting affidavit. In that
event, the jury would hear Mr. Walker vigorously inculpating Mr. Clark and in the same
testimony- or through the recanting affidavit, if admitted- completely absolving him. That
evidence would offer no basis for a jury to discern which account is truthful and further
undermines Mr. Walker's credibility. A rational jury faced with this evidence could not find
guilt beyond a reasonable doubt; it inevitably would acquit.
Mr. Walker's ever-shifting accounts are problematic because his testimony is the
linchpin of what is, in essence, a single witness case. Accordingly, although it does not affect
the outcome of the instant motion, the Court concludes that Mr. Clark has met his burden to
produce credible evidence establishing that a new trial would probably result in an acquittal of
Mr. Clark. See United States v. Henry at 260 (citing United States v. Williams, 233 F.3d at 593);
see also United States. v. Williams, 233 F.3d at 595 (assessing the probability of acquittal by
reference to what "any rational juror could infer").

IV.

INEFFECTIVE ASSISTANCE OF COUNSEL CLAIMS:
FACTUAL BACKGROUND

h1 addition to his claim that the recanting affidavit constitutes new evidence, Mr.
Clark's Section 2255 motion also advances two ineffective assistance of counsel claims arising
from his sentencing and from the appeal of his resentencing. The trial jury convicted Mr. Clark
37

A46

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 38 of 49

on December 13,2010. The Court held a status conference on sentencing issues on June 9,
2011, sentenced Mr. Clark on August 11,2011, and resentenced him following remand from the
court of appeals on September 29, 2014. Trial counsel Joe Conte's withdrawal of an objection to
a sentencing enhancement for obstruction of justice forms the basis of one of Mr. Clark's claims
of ineffective assistance of counsel; the decision of appellate counsel Sandra Roland not to
appeal that same sentencing enhancement is the basis for Mr. Clark's second claim of ineffective
assistance of counsel. See Sec. 2255 Mot. at 5-6; Section 2255 Reply Declaration at 1.
As already discussed, Mr. Clark was held in contempt of court for refusing to
provide a DNA sample. See Part II.A.3.a, supra. Accordingly, the presentence investigation
report prepared by the Probation Office included in its Sentencing Guidelines calculation a twolevel upward adjustment under for obstruction of justice pursuant to U.S.S.G § 3Cl.l. The
sentencing memorandum that Mr. Conte filed on behalfofMr. Clark on June 7, 2011 included
an objection to the obstruction enhancement, noting that Mr. Clark had already served 49 days
for contempt of court that could not be credited against his sentence. See Defendant's First
Memorandum in Aid of Sentencing at 3-4. At the status conference on June 9, 2011, the Court
said: "I'm willing and prepared to listen to arguments, but I think it extremely unlikely that the
defense will persuade me that there shouldn't be an obstruction enhancement in view of what
happened in this case." June 9, 2011 Hr'g Tr. at 4-5.
The Court reiterated this view at the beginning of the sentencing proceeding on
August I1, 2011. See Aug. 11, 20 II Sentencing Tr. at 6. Shortly thereafter, Mr. Conte said:
"Just to make things easier, Judge, I'm withdrawing any objection to the obstruction
enhancement." Aug. I1, 2011 Sentencing Tr. at 7. Later, Mr. Conte confirmed the Court's
understanding that he had "abandoned the obstruction argument," id. at 21, and indicated that he

38

A47

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 39 of 49

knew before the sentencing hearing he would withdraw the objection, see id. at 38. When the
Court offered Mr. Clark the opportunity to speak before imposing sentence, Mr. Clark did not
formally renew his objection to the obstruction enhancement or complain about Mr. Conte's
performance, but he did emphasize his belief that he had refused the DNA test with justification.
Id. at 42-44.
Mr. Clark now argues that Mr. Conte's conduct in these proceedings constituted
ineffective assistance of counsel. Mr. Clark's Section 2255 motion includes his signed and
sworn declaration that he had requested Mr. Conte to "argue against the 2-level obstruction of
justice enhancement prior to sentencing and during the sentencing hearing on August 11, 2011,"
which Mr. Conte did not do. See Clark Declaration at 1.
The second ineffective assistance of counsel claim arises from Mr. Clark's
appeals. Mr. Clark timely filed a notice of appeal from his initial sentence on August 12, 2011.
See First Notice of Appeal at 1. On May 16,2014, the United States Court of Appeals for the
D.C. Circuit affirmed the judgment of conviction except as to the sentence on Count Two,
vacated the sentence on Count Two, and remanded for resentencing on that count. See USCA
Judgment. The court of appeals mandate issued on July 10, 2014. See USCA Mandate.
Assistant Federal Public Defender Sandra Roland entered her appearance on behalf of Mr. Clark
in this Court on July 29, 2014, and Mr. Clark was resentenced on September 29,2014. See

Amended Judgment; Minute Order of Sept. 29,2014. At resentencing, the Court gave effect to
the instructions of the court of appeals with respect to Count Two, reducing Mr. Clark's sentence
by two years, but otherwise noted that, "the rest of the judgement and conviction will be exactly
the same as it was." See Sept. 29,2014 Resentencing Tr. at 8. Accordingly, the resentencing
had no effect on the sentencing enhancement for obstruction of justice.

39

A48

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 40 of 49

Ms. Roland filed a notice of appeal from the resentencing on Mr. Clark's behalf
on October 1, 2014. See Second Notice of Appeal. The notice was the last action Ms. Roland
took on behalf of Mr. Clark. On October 24,2014, she filed with the court of appeals a motion
for leave to withdraw as counsel for appellant, citing an "irreconcilable conflict of interest"
between Mr. Clark and the Federal Public Defender. See Mot. for Leave to Withdraw as
Counsel, United Statesv. Clark, Case No. 14-3068 (D.C. Cir. filed Oct. 24, 2014), Dkt. No.
1518852, at 1. The court of appeals granted the motion on October 27, 2014, and appointed
Richard Seligman to represent Mr. Clark on appeal. Order, D.C. Cir. Dkt. No. 1519137, at 1.
On March 4, 2015, Mr. Seligman filed an unopposed motion to voluntarily
dismiss the appeal that Ms. Roland had filed for Mr. Clark. The motion states that, "[a]fter being
fully informed of the circumstances of his case and the consequences of a dismissal of his
appeal, appellant has decided to seek a voluntary dismissal of his appeal.n Motion for Voluntary
Dismissal, D.C. Cir. Dkt. No. 1540714, at 1. Appended to the motion was a sworn affidavit
from Mr. Clark explaining the motion:
I wish to voluntarily dismiss my appeal of resentencing on Count 2
in the above case. In this regard, my attorney, Richard Seligman,
has fully informed me of the circun1stances of my case and of the
consequences of the dismissal of my appeal. I understand that this
dismissal is only of an appeal for any error with regard to
resentencing for Count 2 [18 U.S.C. § 924(c)(1)(A){ii)] and that it
does not effect [sic] any other legal claims I may have including
claims for ineffective assistance of counsel or newly discovered
evidence.
Affidavit, D.C. Cir. Dkt. No. 1540714, at 1. The D.C. Circuit granted Mr. Clark's motion to
dismiss his appeal on March 17, 2015, directing the Clerk to transmit the order in lieu of a formal
mandate. Order, D.C. Cir. Dkt. No. 1542832, at 1.

40

A49

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 41 of 49

Mr. Clark argues that Ms. Roland's conduct during the appeal of his resentence
constitutes ineffective assistance of counsel. His Section 2255 motion includes a signed and
sworn declaration indicating that he "requested Ms. Sandra Rowland [sic] to raise the obstruction
of justice enhnacement [sic] on direct appeal," that Ms. Roland "never filed the obstruction of
justice enhancement on direct appeal as requested," and that Ms. Roland "advised [Mr. Clark]
that the§ 924(c) enhancement was the one issue to raise on direct appeal in light of Alleyne v.
U.S. 2013" [sic]. Clark Declaration at 1. The court has no further information on the facts of
Mr. Clark's communications with Ms. Roland.

V.

INEFFECTIVE ASSISTANCE OF COUNSEL CLAIMS: ANALYSIS

A. Legal Standard
As with each of the other grounds of his Section 2255 Motion, Mr. Clark bears
the burden of establishing a denial of constitutional rights by a preponderance of the evidence.
Daniels v. United States, 532 U.S. 374, 381-82 (2001). The Court evaluates claims of ineffective
assistance of counsel, which implicate Sixth Amendment rights, under the two-part test set out in
Strickland v. Washington, 466 U.S. 668 (1984). As the D.C. Circuit has explained, Strickland
requires the defendant to establish the following:
First ... that counsel's performance was deficient. This requires
showing that counsel made errors so serious that counsel was not
functioning as the "counsel" guaranteed the defendant by the Sixth
Amendment. Second ... that the deficient performance prejudiced
the defense. This requires showing that counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose result
is reliable.
United States v. Gooch, 842 F.3d 1274, 1279 (D.C. Cir. 2016) (quoting Strickland v.
Washington, 466 U.S. at 687). See also United States v. Murray, 897 F.3d 298, 310-11 (D.C.
Cir. 2018). A court begins with the "strong presumption" that "counsel's conduct falls within
41

A50

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 42 of 49

the range of reasonable professional assistance." Strickland v. Washington, 416 U.S. at 689.
Importantly, the defendant must establish both deficient performance and prejudice in order to
prevail. Failure on either prong of the Strickland inquiry precludes relief.

~'If it is

easier to

dispose of an ineffectiveness claim on the ground of lack of sufficient prejudice ... that course
should be followed." Strickland v. Washington, 466 U.S. at 697. See also United States v.
Talbott, 233 F. Supp. 3d 181, 188 (D.D.C. 2017), affd. 709 F. App'x 20 (D.C. Cir. 2017)
("[T]his Court "need not determine whether counsel's performance was deficient before
examining the prejudice suffered by the defendant.").
The Strickland test applies with equal force to claims concerning trial and
appellate counsel.

See,~

Smith v~ Murray, 477 U.S. 527, 535-36 (1986) (applying Strickland

to claim of attorney error on appeal); Payne v~ Stansberry, 760 F.3d 10, 13 (D.C. Cir. 2014)
(noting that the Strickland standard applies to ineffective assistance of appellate counsel claims).

B. Mr. Clark Lacks a Valid Claim ofIneffective Assistance of Trial Counsel

Mr. Clark's claim fails with respect to his trial counsel because he cannot show
prejudice. Specifically, Mr. Clark has not established a "reasonable probability that, but for
counsel's unprofessional errors, the result of [his sentencing] would have been different." See
United States v. Gray-Burriss, No. 17-3031, slip op. at 5 (D.C. Cir. April9, 2019) (quotations
omitted). See also United States v. Eli, 379 F.3d 1016, 1019 (D.C. Cir. 2004); accord Campbell
v.

Smith~

770 F.3d 540, 549 (7th Cir. 2014) (applying this standard to deny claim that counsel

provided ineffective assistance by failing to object at sentencing to government's breach of plea
agreement). A "reasonable probability" means "a probability sufficient to undermine confidence
in the outcome." Stricklandv. Washington, 466 U.S. at 698. The showing required for prejudice
does not set a high bar: "[t]he question isn't whether [defendant's] prison term would have been
42

A51

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 43 of 49

drastically shorter-just whether it was reasonably likely that the prison tenn would not have
been as long." See United States v. Murray, 897 F.3d at 312.
There is no such likelihood here. To prove prejudice, Mr. Clark must establish a
reasonable probability that, but for Mr. Conte's withdrawal of the objection, the Court would not
have applied the two-level sentencing enhancement to calculating the Guidelines level. Even
had Mr. Conte pressed his objection, it is unlikely that the Court would not have included the
enhancement. As the Court made clear to Mr. Conte before and during sentencing, the
obstruction enhancement was clearly appropriate in light of Mr. Clark's refusal to comply with a
valid order of this Court. See June 9, 2011 Hr'g Tr. at 5; Aug. 11,2011 Sentencing Tr. at 6.
Neither Mr. Clark's Section 2255 motion nor his memorandum in aid of sentencing establishes
that the obstruction enhancement should not have been included in the calculation of the
Guidelines range. By way of argument against the obstruction enhancement, Mr. Clark's
sentencing memorandum says only that
Mr. Clark objected to giving a second DNA sample because he had
already provided a sample and did not want further invasion of his
privacy. As a result he will not receive credit for 49 of the days he
was incarcerated. The assertion of his constitutional right and the
resulting incarceration should not be a predicate for a two level
enhancement. Thus a two level increase is not warranted in this
case.
See Defendant's First Memorandum in Aid of Sentencing at 3-4. Mr. Clark has the burden to
prove that it is reasonably likely that the court would have declined to apply the obstruction
enhancement. He cannot carry his burden with the conclusory statement that Mr. Clark enjoys a
constitutional right to disregard a valid order from this Court to provide a DNA sample in aid of
a criminal investigation.

43

A52

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 44 of 49

Even assuming that the withdrawal of the objection did prejudice Mr. Clark, his
ineffective assistance claim with respect to Mr. Conte fails under the first prong of Strickland for
the independent reason that Mr. Conte's withdrawal of the objection did not "(fall] below an
objective standard of reasonableness." See United States v. Sitzmann, 893 F.3d 811,831 {D.C.
Cir. 2018) (affirming without remand the district court's denial of ineffective assistance claims
that were "either conclusory, insubstantial, or both"); see also Strickland v. Washington, 466
U.S. at 688 ("The proper measure of attorney performance remains simply reasonableness under
prevailing professional norms."). In this analysis, Mr. Clark must overcome the "strong
presumption" that "the challenged action might be considered sound trial strategy." See
Strickland v. Washington, 466 U.S. at 689; see also United States v. Abney, 812 F.3d 1079,
1087 (D.C. Cir. 2016) (denying a claim ofineffective assistance of counsel at sentencing;
explaining that, where the record does not make explicit "counsel's actual strategy or lack
thereof," the "presumption may only be rebutted by showing that no sound strategy ... could
have supported the conduct") (quoting Thomas v. Varner, 428 F.3d 491, 500 (3d Cir. 2005)).
Here, there are at least two reasons why Mr. Conte's decision to withdraw his
objection to the sentencing enhancement was supported by sound strategy. First, Mr. Conte was
responding to the Court's clear expression of its intent to include the obstruction enhancement in
its Guidelines calculations. The Court had itself held Mr. Clark in contempt for obstruction of
justice for failure to produce a DNA sample during the pre-trial proceedings. After considering
the written objection to the obstruction enhancement in Mr. Clark's memorandum, see
Defendant's First Memorandum in Aid of Sentencing at 3-4, the Court informed the parties at the
June 2011 status conference that it was "extremely unlikely" that the Court could be persuaded
to forgo the enhancement. See June 9, 2011 Hr'g Tr. at 5. The Court repeated this sentiment at

44

A53

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 45 of 49

the sentencing hearing itself, noting that the enhancement was "quite appropriate" in view of the
circumstances. Immediately thereafter, Mr. Conte withdrew the objection to the obstruction
enhancement "to make things easier" for the Court. See Aug. 11, 2011 Sentencing Tr. at 6. In
withdrawing an objection that he reasonably believed to be fruitless, Mr. Conte simply reserved
the Court's attention for areas where he hoped to improve Mr. Clark's sentencing prospects.
Second, where "the sentence enhancement was appropriate ... defendant's
counsel's failure to object [does] not fall outside the wide range of professionally competent
assistance." United States v~ Turley, 37 F. Supp. 2d 1262, 1265 (D. Kan. 1998) (denying claim
of ineffective assistance of counsel premised on counsel's failure to object to obstruction of
justice sentencing enhancement) (quotations omitted). Here, the sentence enhancement was
appropriate. The Sentencing Guidelines provide for an enhancement "[i]f the defendant willfully
obstructed or impeded, or attempted to obstruct or impede, the administration of justice during
the investigation, prosecution, or sentencing of the instant offense." See United States
Sentencing Guidelines§ 3 Cl.l. This Court granted the government's motion to compel
production of DNA samples in aid of its investigation of the instant case. See DNA Order. Mr.
Clark refused to provide the samples on two occasions, even after being informed by the Court
that failure to provide the samples would result in contempt- which it did, on October 18, 20 l 0.
In the order terminating Mr. Clark's contempt, the Court specifically found that "the purpose of
holding Mr. Clark in civil contempt was to coerce compliance" with the Court's order to provide
DNA and hair samples "that were being gathered in anticipation of trial." See Order, Dkt. No.
58, at I. In short, the Court's orders clearly establish that Mr. Clark "willfully obstructed ... the
investigation [or] prosecution" of this case, for purposes of the sentencing guidelines. See
U.S.S.G. § 3Cl.l. Because the enhancement was entirely appropriate under the Guidelines, trial

45

A54

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 46 of 49

counsel's withdrawal of an objection to the enhancement was not unreasonable under the
"prevailing professional norms." See Strickland v. Washington, 466 U.S. at 688.

C. Mr. Clark Lacks a Valid Claim ofIneffective Assistance ofAppellate Counsel
To establish a claim of ineffective assistance of appellate counsel, Mr. Clark must
prove the same elements that apply to ineffective assistance of trial counsel: that Ms. Roland
performed deficiently and that her performance prejudiced Mr. Clark's appeal. See Williams v.
Martinez, 683 F. Supp .2d 29,32 (D.D.C. 2010) ("To show ineffective assistance of appellate
counsel, [petitioner] must show that his appellate counsel's performance was (1) deficient and
(2) prejudiced his defense such that there was a reasonable probability that but for counsel•s
unprofessional errors, the result of the proceeding would have been different.") (quotations and
citation omitted). "Failure to make the required showing of either deficient performance or
sufficient prejudice defeats the ineffectiveness claim." Strickland v. Washington, 466 U.S. at
700. Mr. Clark has failed to make both showings.
In the appellate context, a petitioner may establish deficient performance by
showing that "his counsel was objectively unreasonable in failing to find arguable issues to
appeal- that is, that counsel unreasonably failed to discover nonfrivolous issues and to file a
merits brief raising them." Peete v. United States, 942 F. Supp. 2d 51, 54 (D.D.C. 2013)
(quoting Smith v. Robbins, 528 U.S. 259, 285 (2000)). The Court has no information on the
nature of Mr. Clark's conversations with appellate counsel, other than that he asked Ms. Roland
to raise the obstruction enhancement on appeal and she did not. See Clark Declaration at 1.
The procedural history of the case clearly establishes the reasonableness of this
decision. Ms. Roland assisted Mr. Clark only with resentencing and the appeal thereof. The
Court resentenced Mr. Clark on Count 2 only after remand from the D.C. Circuit, which
46

A55

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 47 of 49

otherwise upheld every aspect of Mr. Clark's conviction and sentences. See May 16,2014
Judgment, Dkt. No. 105. Under these circumstances, it was hardly unreasonable for Ms. Roland
to focus the appeal of the resentence to matters that were actually before the Court during
resentencing. Mr. Clark argues that Ms. Roland Hcould have raised the issue as plain error''
affecting his rights. See Section 2255 Second Reply at 16 (emphasis added). But the possibility
that the claim could be raised does not mean that counsel's decision not to press the claim is an
objectively unreasonable choice. Even assuming that the obstruction issue was non-frivolous at
that phase of the appeal, "[t]here is no constitutional right of criminal defendants to have
appellate counsel raise every nonfrivolous issue that the defendant requests. Jones v. Barnes,
463 U.S. 745, 754 n. 7 (1983). See also U11ited States v. Bowman, 2018 WL 6308778 at *6
(D.D.C. Dec. 3, 2018). "Th[e] process of winnowing out weaker arguments on appeal and
focusing on those more likely to prevail, far from being evidence of incompetence, is the
hallmark of appellate advocacy." Smith v. Murray~ 477 U.S. at 527, 536 (quoting Jones v.
Barnes, 463 U.S. at 751-52) (quotations omitted). Ms. Roland exercised the reasonable
discretion of appellate counsel; her performance did not fall beneath minimum standards of
competence.
Mr. Clark's claim of ineffective assistance of appellate counsel fails for the
independent reason that, even assuming Ms. Roland's performance was deficient, Mr. Clark
cannot establish that he was prejudiced by her performance. Mr. Clark "must show a reasonable
probability that, but for his counsel's [error], he would have prevailed on his appeal." Peete v.
United States, 942 F. Supp. 2d at 54 (quoting Smith v. Robbins, 528 U.S. at 285). In the instant
case, then, Mr. Clark must show that if Ms. Roland had appealed the obstruction enhancement,

47

A56

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 48 of 49

the D.C. Circuit would have reached a different result in the proceeding with which Ms. Roland
assisted him (i.e., the appeal following Mr. Clark's resentencing).
But Mr. Clark has a problem on this score: None of his briefing even engages the
issue of prejudice. To wit, the declaration concerning the ineffective assistance claims states
only that Ms. Roland failed to object to the enhancement on appeal and instead chose to focus on
the Section 924(c) issues. See Clark Declaration. Mr. Clark's prose reply in support of his
Section 2255 Motion is devoid of argument on the appellate counsel claim. See Section 2255
Reply. The attached declaration adds only that he "unequivocally requested of Ms. Roland to
raise the obstruction of justice enhancement on direct appeal" but that she did not See Section
2255 Reply Declaration. Even the supplemental reply to the Section 2255 motion prepared with
the aid of counsel is devoid of any attempt to describe how or why the D.C. Circuit would have
acted differently had Ms. Roland raised the obstruction enhancement. .See Section 2255 Second
Reply at 15-17.
Furthermore, there is little chance that, even had Mr. Clark addressed the question
of prejudice, Mr. Clark or his counsel could have established a reasonable probability that, but
for Ms. Roland's alleged errors, the court of appeals would have acted differently. See United
Statesv. Smoot, 918 F.3d 163, 168 (D.C. Cir. 2019). First, the obstruction of justice
enhancement was appropriately applied, as discussed above. Second, in the per curiam order
that largely affirmed this Court's initial sentence, the court of appeals gave no indication as to its
sentiments concerning the obstruction enhancement, and certainly nothing to encourage the
viability of Mr. Clark's argument against the enhancement. See USCA Judgment. Similarly, the
court of appeals- acting on Mr. Clark's unopposed motion to dismiss- dismissed his appeal of
the resentence without discussing the merits. See Order at l, D.C. Cir. Dkt. No. 1542832. See

48

A57

Case 1:10-cr-00133-PLF Document 143 Filed 04/22/19 Page 49 of 49

also Dkt. No. 113. In short, Mr. Clark has not established (or attempted to establish) any
prejudice from Ms. Roland's conduct in this case.
VI.

CONCLUSION

For the foregoing reasons, the Court will deny the new evidence and ineffective
assistance of counsel claims presented in the motion [Dkt. No. 114] to vacate, set aside, or
correct Mr. Clark's sentence under 28 U.S.C. § 2255. The Court reserves for later resolution the
claim presented in the supplement to defendant's motion [Dkt. No. 132], that Mr. Clark's
sentence on Count Two under 18 U.S.C. § 924(c) is now unconstitutional. The Court will
consider this claim after the Supreme Court of the United States decides United States v. Davis,
No. 18-43. In resolving that claim, the Court will consider all relevant information and argument
from Mr. Clark's initial Section 2255 motion [Dkt. No. 114].
Mr. Clark's Section 2255 motion consists ofDkt. No. 114 as amended by Dkt.
No. 132; today's opinion resolves three ofMr. Clark's claims but leaves the motion open until
the Court is able to resolve his fourth claim. Accordingly, the motion [Dkt. No. 114] will be
denied in part and held in abeyance in part. An Order giving effect to this Opinion shall issue
this same day.

United States District Judge

DATE:

1 \ ~)... \ \'i

49

A58

